<html>
<title> - U.S.-IRAN TENSIONS: IMPLICATIONS FOR HOMELAND SECURITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
         U.S.-IRAN TENSIONS: IMPLICATIONS FOR HOMELAND SECURITY

=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 15, 2020

                               __________

                           Serial No. 116-57

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                            __________
                               
                U.S. GOVERNMENT PUBLISHING OFFICE 
41-269 PDF               WASHINGTON : 2020                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4

                               Witnesses

Ms. Barbara A. Leaf, Director, Geduld Program on Arab Politics, 
  Washington Institute:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Vincent Stewart, Special Advisor and Chairman, Board of 
  Advisors, Middle East Media Research Institute:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Thomas S. Warrick, Nonresident Senior Fellow, Atlantic 
  Council:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Mr. Anthony J. Tata, CEO and President, Tata Leadership Group:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Letter From the Jewish Federations of North America............    63


         U.S.-IRAN TENSIONS: IMPLICATIONS FOR HOMELAND SECURITY

                              ----------                              


                      Wednesday, January 15, 2020

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room 310, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Richmond, Correa, Torres Small, Underwood, Slotkin, Green of 
Texas, Titus, Barragan, Demings; Rogers, King, Katko, Higgins, 
Green of Tennessee, Joyce, Crenshaw, Guest, and Bishop.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on 
``U.S.-Iran Tensions: Implications for Homeland Security.'' 
Without objection, the Chair is authorized to declare the 
committee in recess at any point.
    Good morning. Today the committee is meeting to examine the 
Homeland Security implications of the recent escalation in 
U.S.-Iran tensions in the wake of the killing of Qassem 
Soleimani. Iran and Iranian-linked terrorists have shown a 
capability and willingness to conduct terrorist attacks against 
the United States and our allies and interests abroad. Clearly 
the escalation of tensions between the United States and Iran 
could have dire consequences for the security of the homeland.
    More broadly, the suspension of U.S.-led counterterrorism 
efforts against ISIS in the region ostensibly, in order to 
focus on the threat from Iran and its proxies may allow ISIS to 
reconstitute in unsecured areas of Iraq and Syria. This would 
dramatically undermine the fight against ISIS and make U.S. 
interests abroad and home less safe.
    As Members of Congress we have an obligation to do 
everything in our power to protect our constituents by 
defending the Nation from physical attacks, cyber attacks and 
influence campaigns designed to undermine our democracy and 
sway public opinion in favor of Iran, or its friends.
    I am deeply concerned that President Trump has no strategy 
and his administration has failed to plan adequately for 
addressing the Homeland Security consequences that might follow 
military actions in Iran. The administration must immediately 
put forward a measured comprehensive strategy that accounts for 
potential threats to the homeland from Iranian actors and their 
proxies.
    As part of that strategy, the Department of Homeland 
Security must ensure it is prepared for all contingencies 
related to the escalation in U.S.-Iran tensions. I look forward 
to a frank discussion today about what the strategy should be. 
I am particularly interested in understanding how Iran could 
use its relatively sophisticated cyber capabilities against 
State and local governments and critical infrastructure to 
extract revenge for the death.
    We need to understand whether potential targets are 
prepared to defend against Iranian cyber threats and what the 
Federal Government can do to help them if they are not. 
Although there have been no specific threats to the critical 
infrastructure, escalation of tensions with any adversary 
demands that we take stock of all the current measures we 
employ to defend ourselves. This is particularly true in the 
case of Iran, a country that is unpredictable in its responses 
and hide behind proxies and sympathizers to do its dirty work.
    Toward that end I would be remiss if I did not note that 
the Chemical Facilities Anti-Terrorism Standards Program is set 
to expire in April. Although the House has begun work on 
reauthorizing this important antiterrorism program, the Senate 
has not. At this point it is unclear if the Senate intends to 
work with the House to reauthorize the program. I urge the 
Senate to begin work on this National security priority. It 
would be irresponsible to allow the program to lapse at this 
time.
    Finally, in recent weeks we have seen an uptick in Iran's 
influence activity on social media. I do not need to tell 
anyone here that it is an election year and influence activity 
is bound to increase. Given the committee's election security 
work, I am concerned Iran might escalate its influence 
activities as we approach the election and what more the 
Federal Government and its private-sector partners should be 
doing to counter Iranian messaging.
    We need to be prepared to confront and defend against 
Iran's influence efforts and ensure the integrity of our 
democracy and our most sacred institutions. We are fortunate to 
be joined by witnesses with vast experience with the Department 
of State, Defense, and Homeland Security as well as expertise 
in matters related to Iran.
    I look forward to a productive discussion today and remain 
committed to ensuring this committee does its part to help 
secure the homeland from threats posed by Iran, its proxies, or 
any other who would seek to do to harm to Americans.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentlemen from Alabama, Mr. Rogers, for an 
opening statement.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            January 15, 2020
    Today, the committee is meeting to examine the homeland security 
implications of the recent escalation in U.S.-Iran tensions in the wake 
of the killing of Qasem Soleimani. Iran and Iranian-linked terrorists 
have shown a capability and willingness to conduct terrorist attacks 
against the United States and our allies and interests abroad. Clearly, 
the escalation of tensions between the United States and Iran could 
have dire consequences for the security of the homeland. More broadly, 
the suspension of U.S.-led counterterrorism efforts against ISIS in the 
region, ostensibly in order to focus on the threat from Iran and its 
proxies, may allow ISIS to reconstitute in unsecured areas of Iraq and 
Syria. This would dramatically undermine the fight against ISIS and 
make U.S. interests abroad and home less safe.
    As Members of Congress, we have an obligation to do everything in 
our power to protect our constituents by defending the Nation from 
physical attacks, cyber attacks, and influence campaigns designed to 
undermine our democracy and sway public opinion in favor of Iran or its 
friends. I am deeply concerned that President Trump had no strategy and 
his administration has failed to plan adequately for addressing the 
homeland security consequences that might follow military action in 
Iran. The administration must immediately put forward a measured, 
comprehensive strategy that accounts for potential threats to the 
Homeland from Iranian actors and their proxies.
    As part of that strategy, the Department of Homeland Security must 
ensure it is prepared for all contingencies related to the escalation 
in U.S.-Iran tensions. I look forward to a frank discussion today about 
what that strategy should be. I am particularly interested in 
understanding how Iran could use its relatively sophisticated cyber 
capabilities against State and local governments and critical 
infrastructure to exact revenge for the death of Soleimani. We need to 
understand whether potential targets are prepared to defend against 
Iranian cyber threats, and what the Federal Government can do to help 
them if they are not. Although there have been no specific threats to 
critical infrastructure, escalation of tensions with any adversary 
demand that we take stock of all the current measures we employ to 
defend ourselves. This is particularly true in the case of Iran, a 
country that is unpredictable in its responses and hides behind proxies 
and sympathizers to do its dirty work.
    Toward that end, I would be remiss if I did not note that the 
Chemical Facilities Anti-Terrorism Standards Program is set to expire 
in April. Although this House has begun work on reauthorizing this 
important anti-terrorism program, the Senate has not. At this point, it 
is unclear if the Senate intends to work with the House to reauthorize 
the program. I urge the Senate to begin work on this National security 
priority. It would be irresponsible to allow the program to lapse at 
this time.
    Finally, in recent weeks, we have seen an uptick in Iran's 
influence activity on social media. I do not need to tell anyone here 
that it is an election year, and influence activity is bound to 
increase. Given this committee's election security work, I am concerned 
Iran might escalate its influence activities as we approach the 
election and what more the Federal Government and its private-sector 
partners should be doing to counter Iranian messaging. We need to be 
prepared to confront and defend against Iran's influence efforts and 
ensure the integrity of our democracy and our most sacred institutions.
    We are fortunate to be joined by witnesses with vast experience 
with the Departments of State, Defense, and Homeland Security and 
expertise in matters related to Iran. I look forward to a productive 
discussion today and remain committed to ensuring this committee does 
its part to help secure the homeland from threats posed Iran, its 
proxies, or any others who would seek to do America harm.

    Mr. Rogers. Thank you, Mr. Chairman. Iran has been 
escalating tensions in the Middle East for decades. Since the 
Nuclear Deal was signed, Iran's malign activities have only 
increased.
    The $100 billion in assets released by the Obama 
administration helped Iran enhance the manpower and capability 
of its terrorist proxies. It helped Iran to conduct vicious 
cyber attacks on private industry and allied nations. It 
enabled them to grow their missile stockpiles and improve their 
lethality.
    Six months after it signed the JCPOA, Iran conducted 
ballistic missile test with missiles carrying the inscription, 
``Israel should be wiped off the Earth''. It is clear that the 
Obama-era policies of appeasement did not work. The President 
was right to take the United States out of the JCPOA and 
reimpose sanctions.
    The President understood that the JCPOA was not going to 
contain Iran. That flawed deal was doing nothing to end the 
very clear and direct threat the Iranian regime poses to the 
United States, Israel, and the rest of our allies. For over a 
decade, Iran has funneled money, terrorists, and advanced 
weapons to its proxies in Iraq, Syria, and Lebanon, who used 
them to attack U.S. troops and Israeli citizens.
    In doing so, Iran is responsible for the deaths of over 600 
Americans. The latest American murdered at the hands of Iran 
was a civilian contractor and father of 2 young children in 
California. Fortunately, the President took decisive action to 
eliminate the brutal terrorist primarily responsible for his 
death and the deaths of thousands of others.
    Qassem Soleimani was sanctioned as a terrorist by the 
United Nations and the Obama administration. For over 20 years 
he lived at IRGC's Quds Force, a foreign terrorists' 
organization. Soleimani was not visiting Baghdad because it was 
a great holiday destination. He was there with--as some peace 
envoy--he was not there as some peace envoy. He was there to 
meet with a leader of a terrorist group to plan more attacks on 
Americans.
    The President used the law and his Constitutional authority 
as commander-in-chief to eliminate this terrorist mastermind 
before he could kill again. For the first time in years Iran 
received the message that there will be no real consequences 
should they continue to threaten--that there will be real 
consequences should they continue to threaten the United States 
and our allies.
    I hope Iran understands this message and finally ends their 
malicious and destabilizing actions in the Middle East. I also 
hope that the Iranian regime understands that the United States 
will not hesitate to defend our homeland against any threat 
that they advance.
    For years the Department of Homeland Security, FBI, and 
other law enforcement partners have kept close watch on Iran's 
intentions and its capability to strike our homeland. The 
threat from Iran is real. We know they continue to shelter 
senior al-Qaeda leaders and allow them to conspire with other 
terrorists.
    We have witnessed their cyber attacks on our industry and 
local government. We thwarted their plots to conduct 
assassinations in the United States and we have arrested their 
operatives for surveilling critical infrastructure and plotting 
attacks on our homeland. We must remain vigilant in the face of 
these threats. It is more important than ever for Americans to 
report suspicious activity to law enforcement at every level to 
share information and intelligence on threats to our security.
    Nearly all committee Members attended the threat briefing 
with senior DHS officials last week to learn more about the 
Iranian threat and the Department's response. I want to commend 
the Acting Secretary Wolf for the actions the Department is 
taking to mitigate the threat from Iran. I look forward to 
continuing this committee's bipartisan efforts to ensure DHS 
has the authority and resources it needs to successfully 
counter the threat from Iran and other sponsors of terror.
    I thank the witnesses for coming and I thank each of them 
for their service to our Nation. I look forward to a 
constructive hearing and good discussion on what actions the 
Government should take to counter the threat from Iran, and I 
yield back.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
                            January 15, 2020
    Iran has been escalating tensions in the Middle East for decades.
    Since the nuclear deal was signed, Iran's malign activities have 
only increased.
    The $100 billion in assets released by the Obama administration 
helped Iran enhance the manpower and capability of its terrorist 
proxies.
    It helped Iran to conduct vicious cyber attacks on private industry 
and allied nations.
    It enabled them to grow their missile stockpiles and improve their 
lethality.
    Six months after it signed the JCPOA, Iran conducted ballistic 
missile tests with missiles carrying the inscription ``Israel should be 
wiped off the earth.''
    It is clear the Obama-era policies of appeasement did not work.
    The President was right to take the United States out of the JCPOA 
and reimpose sanctions on Iran.
    The President understood that the JCPOA was not going to contain 
Iran.
    That flawed deal was doing nothing to end the very clear and direct 
threat the Iranian regime poses to the United States, Israel, and the 
rest of our allies.
    For over a decade, Iran has funneled money, terrorists, and 
advanced weapons to its proxies in Iraq, Syria, and Lebanon, who used 
them to attack U.S. troops and Israeli citizens.
    In so doing, Iran is responsible for the deaths of over 600 
Americans.
    The latest American murdered at the hands of Iran was civilian 
contractor and father of 2 young children in California.
    Fortunately, the President took decisive action to eliminate the 
brutal terrorist primarily responsible for his death and the deaths of 
thousands of others.
    Qussem Souleimani was sanctioned as a terrorist by the United 
Nations and the Obama administration.
    For over 20 years, he led the IRGC's Quds Force, a foreign 
terrorist organization.
    Souleimani was not visiting Baghdad because it's a great holiday 
destination.
    He wasn't there as some peace envoy.
    He was there to meet with the leader of a terrorist group to plan 
more attacks on Americans.
    The President used the law and his Constitutional authority as 
commander-in-chief to eliminate this terrorist mastermind before he 
could kill again.
    For the first time in years, Iran received the message that there 
will be real consequences should they continue to threaten the United 
States and our allies.
    I hope Iran understands this message and finally ends their 
malicious and destabilizing actions in the Middle East.
    I also hope the Iranian regime understands that the United States 
will not hesitate to defend our homeland against any threat they 
advance.
    For years, the Department of Homeland Security, the FBI, and other 
law enforcement partners have kept close watch on Iran's intentions and 
its capability to strike our homeland.
    The threat from Iran is real.
    We know they continue to shelter senior al-Qaeda leaders and allow 
them to conspire with other terrorists.
    We've witnessed their cyber attacks on our industry and local 
government.
    We've thwarted their plots to conduct assassinations in the United 
States.
    We've arrested their operatives for surveilling critical 
infrastructure and plotting attacks on the homeland.
    We must remain vigilant in the face of these threats.
    It is more important than ever for Americans to report suspicious 
activity and for law enforcement at every level to share information 
and intelligence on threats to our security.
    Nearly all committee members attended a threat briefing with senior 
DHS officials last week to learn more about the Iranian threat and the 
Department's response.
    I want to commend Acting Secretary Wolf for the actions the 
Department is taking to mitigate the threat from Iran.
    I look forward to continuing this committee's bipartisan efforts to 
ensure DHS has the authority and resources it needs to successfully 
counter the threat from Iran and other sponsors of terror.
    I thank the witnesses for coming and I thank each of them for their 
service to our Nation.
    I look forward to a constructive hearing and a good discussion on 
what actions the Government should take to counter the threat from 
Iran.

    Chairman Thompson. Thank you very much. Other Members of 
the committee are reminded that under the committee rules 
opening statements may be submitted for the record.
    I welcome our panel of witnesses today. Our first witness, 
Ambassador Barbara A. Leaf is the Ruth and Sid Lapidus fellow 
and director of the Geduld Program of Arab Politics at the 
Washington Institute for the Near East policy. Ambassador Leaf 
served as U.S. Ambassador to the United Arab Emirates from 2014 
to 2018.
    Next we are joined by Lieutenant General Vincent R. Stewart 
who served as a special advisor and chairman of Middle East 
Media Research Institute Board of Advisors. Lieutenant General 
Stewart formally served as the deputy commander of the U.S. 
cyber command and director of the Defense Intelligence Agency.
    We also are joined by Mr. Thomas Warrick, a non-resident 
senior fellow at the Atlantic Council. Mr. Warrick previously 
served as the deputy assistant secretary for counter-terrorism 
policy at the Department of Homeland Security from 2008 to 
2019.
    Finally, we are joined by Brigadier General Anthony Tata, 
the CEO and president of Tata Leadership Group. After retiring 
from a 28-year career in the United States Army, Brigadier 
General Tata recently served as North Carolina's Secretary of 
Transportation.
    Without objections the witnesses' full statement will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes beginning with Ambassador Leaf.

STATEMENT OF BARBARA A. LEAF, DIRECTOR, GEDULD PROGRAM ON ARAB 
                 POLITICS, WASHINGTON INSTITUTE

    Ms. Leaf. Chairman Thompson, Ranking Member Rogers, 
distinguished Members of the committee, what comes next after 
the January 3 killing of Quds Force commander Qassem Soleimani 
and a senior Iraqi militia commander?
    In my view we cannot take literally Foreign Minister 
Zarif's statement that with Iran's missile strikes on U.S. 
Forces in Iraq, Iran has concluded proportionate measures in 
self-defense. Rather, we are in a pause in an escalatory cycle. 
The factors driving this cycle are numerous, although 
Soleimani's quest to drive the United States from the region is 
long-standing.
    The essential stalemate between Washington's maximum 
pressure campaign and Tehran's maximum resistance campaign: 
Tehran's view that it is already in a war, an economic war 
waged by the United States. Its leaders' conviction that they 
have staying power and tools that the United States lacks. 
Attacks on shipping, assassinations, terrorism, formidable 
regional proxies, providing Tehran myriad ways to continue 
countering U.S. pressure. Thus the impasse. Thus the continuing 
threats.
    I will focus here on Iraq and the Persian Gulf where Tehran 
will almost certainly revert to a campaign of pressure. In 
Iraq, Tehran has long judged, enjoys a decisive advantage over 
the United States in influence and coercive tools. In the Gulf, 
Tehran has repeatedly demonstrated to Washington's closest 
allies their strategic role and abilities are acute, 
notwithstanding the presence of longstanding U.S. military 
facilities and thousands of U.S. service members.
    In Iran, Soleimani leaves behind a well-oiled disciplined 
machine acting on behalf of a regionally powerful, if 
economically stressed, state. In Iraq, Iranian-affiliated 
militias are pushing hard to fulfill his vision, forcing the 
departure of the 5,000 strong U.S. military training mission. 
The pressure is unrelenting within the government on Shia and 
Kurdish politicians and most brutally against Iraqi protestors 
who reject both Iranian interference and the recent threat-
induced parliamentary vote.
    The Iraq of 2020 aptly reflects Soleimani's efforts in 
Iraq, always weak vis-a-vis Iran and the government, itself, 
suborned and weakened by a set of proxy armed actors not under 
the state's control and largely pliant under Iranian direction. 
Today some 3 dozen such militias operate in Iraq commanding 
some 60,000 members.
    They flout Iraqi law and the Constitution, operate training 
sites and arms depots that are no-go zones for the Iraqi 
security forces. They have repeatedly targeted U.S. military 
sites and U.S. diplomatic facilities over the past 18 months; 
participate in Iran's program to transfer advance missile 
technology to Lebanese Hezbollah and targeted the Saudi East 
West Pipeline.
    Whether these militias will take on a future Hezbollah 
style role abroad, acting on Iran's behalf is as yet an open 
question. While fully half of the 70- to 80,000 U.S. forces 
deployed in the Middle East are ranged across the 6 GCC 
countries, these countries have felt extraordinarily exposed 
and vulnerable amidst escalating tensions between the United 
States and Iran, and Iranian attacks on Gulf energy 
infrastructure and oil tankers in 2019.
    They are acutely vulnerable to Iran's full suite of 
asymmetrical tools, cyber in particular. A prolonged takedown 
of the electrical grids alone would be devastating. I will say 
that the administration's responses throughout that period of 
last year's attacks by Iran were contradictory and somewhat 
confusing.
    This and the lack of U.S. response to the earlier attacks 
appear to have led Tehran to calculate that it bore little risk 
of reprisal, especially in September 2014. Why do these 
activities in the Gulf or in Iraq via proxies, matter for U.S. 
Homeland Security?
    Number 1, oil. Notwithstanding the new U.S. role as an 
energy mega giant, oil remains a global commodity, its price 
affected directly by security or insecurity in the Persian 
Gulf, carrying a knock-on effect for economies including our 
own.
    Number 2, counterterrorism. Our ability to pursue robust 
counter-terrorism efforts with dependable allies directly 
affects our security at home. Sustaining critical training for 
Iraqi security forces, intelligence sharing and acquisition 
leading the enduring defeat of ISIS in Iraq and Syria are now 
very much in question. ISIS cell attacks in Iraq alone last 
year numbered nearly 900.
    If we are compelled to pull U.S. trainers from Iraq, 
sustaining them in Syria will be impossible in my view.
    Finally, regional stability. In Karim Sadjadpour's words, 
Qassem Soleimani's sinister genius was marshalling both Sunni 
and Shia extremists to bring a wrecking ball earlier to the 
U.S. project in Iraq, then building out a foreign legion to 
expand Iran's influence far across the Arab Middle East.
    This project of constructing parallel institutions to the 
state that suborn it and follow foreign direction is vividly on 
display in Iraq, Syria, and Lebanon. It's a recipe for chronic 
instability and insecurity across a widening arc of territory 
that is home to nearly 70 million people, the globe's fourth-
largest oil producer, source of a global extremist scourge and 
source of more than 8 million refugees.
    Thank you.
    [The prepared statement of Ms. Leaf follows:]
                 Prepared Statement of Barbara A. Leaf
                            January 15, 2020
    Chairman Thompson, Ranking Member Rogers, distinguished Members of 
the committee, thank you for the opportunity to come before the 
committee today to discuss a set of issues which has gripped the U.S. 
Government, the Congress, and indeed, much of the American public for 
the last 2 weeks. The subject you have asked me and my fellow panelists 
to address is a critical one--the homeland security implications of 
rising U.S.-Iran tensions; specifically, what we might anticipate in 
the aftermath of the U.S. lethal targeting of Qassem Soleimani on 
January 3. I would like to acknowledge up front a debt I owe to the 
invaluable primary research and analysis on the Shia militias that form 
Qassem Soleimani's ``foreign legion'' of proxies, done by my colleagues 
at the Washington Institute, Phillip Smyth and Michael Knights, work 
which has been invaluable background for my discussion today.
    Four days after Soleimani's death, Iran responded dramatically, 
with a volley of ballistic missiles directed at 2 bases hosting U.S. 
military trainers in Iraq. We cannot take FM Javad Zarif's statement 
immediately afterwards--that Iran has ``concluded proportionate 
measures in self-defense''--as a signal that Tehran's missile strike 
definitively brings this matter to a close, however. Rather, we are in 
a pause in an escalatory cycle, one in which the United States and Iran 
are very likely to find themselves once again facing decisions on a 
kinetic response, sooner rather than later.
    The factors driving this cycle are numerous, although Soleimani's 
vision to drive the United States from the region is long-standing--the 
essential stalemate between Washington's ``maximum pressure campaign'' 
and Tehran's ``counter-pressure campaign'' sets the more immediate 
context; Iran's move up the escalatory ladder was on vivid display last 
summer in the waters of the Persian Gulf, against Saudi Aramco, and in 
repeated attacks on U.S. military and civilian personnel in Iraq. 
Tehran's view is that it is already in a war, an economic war waged by 
the United States, but its leaders are equally convinced that they have 
staying power and tools that the United States lacks. Iran has 
developed doctrine, systems, and methods for operating in the ``gray 
zone'' rather than in head-on conventional conflicts, and its array of 
asymmetrical tools, which range from attacks on shipping, 
assassination, terrorism, to a formidable array of regional proxies 
provide it the way to continue countering U.S. pressure. While wreaking 
revenge. As Suzanne Maloney put it recently, ``The regime's 
determination to end the American siege is magnified by an ideological 
and strategic zeal to settle scores for Soleimani's death, to preserve 
or even expand the footprint that he achieved for Iran across the 
broader Middle East, and ideally emerge from this crisis with some big 
strategic gain, such as durably eroding U.S. presence and influence in 
the broader Middle East.''
    I would like to focus in my remarks on the geo-political 
ramifications of Jan. 3, in particular in Iraq and the Persian Gulf, 
two arenas where Tehran is most likely to look for opportunities to 
avenge Soleimani's death. It is there that Tehran will almost certainly 
revert to a campaign of pressure and attacks. In Iraq, Tehran has long 
judged it enjoys a decisive advantage over the United States in 
influence and coercive tools. In the Gulf, Tehran has repeatedly 
demonstrated to Washington's closest allies that their strategic 
vulnerabilities are acute, notwithstanding the presence of long-
established U.S. military facilities and thousands of U.S. service 
members.
    If ever two adversaries of the United States brought on their own 
deaths, it was Iranian Quds Force Commander Qassem Soleimani and Jamal 
Jaafar Ibrahimi (AKA Abu Mahdi Al Muhandis), commander of the Iraqi 
militia Kata'ib Hezballah. Killed as they departed Baghdad airport 
together, Soleimani and Al Muhandis were long-time collaborators in a 
common project to target U.S. troops to drive them out of Iraq; their 
pioneering handiwork in the use of explosively-formed projectiles (EFP) 
killed hundreds of U.S. service members and maimed thousands more. More 
recently, KH's task from Soleimani--to harass and target U.S. military 
personnel with repeated shelling of training sites over much of 2019--
finally resulted in the death of an American on Dec. 27; the U.S. 
response 2 days later, targeting 5 KH sites, was met with a violent 
assault by the militia and its supporters on the U.S. Embassy in 
Baghdad.
    Both architect and orchestrator of Iran's destructive regional 
policies in Syria, Lebanon, Iraq, Yemen, and Bahrain, Soleimani had 
achieved a singular stature in Iran and in the wider Middle East by 
dint of his own extraordinary media profile and the multiple successes 
he claimed on behalf of Tehran: For turning the tide of Syria's civil 
war to Bashar Al Assad's favor; for being first on the battlefield in 
2014 as ISIS forces surged across northern Iraq toward Erbil; for his 
small-investment-huge-payout decision to train and equip Yemen's 
Houthis with advanced missile technology, such that they could strike 
deep into Saudi territory, threaten the UAE and put international 
shipping in the Bab Al Madeb at risk; for his unmatched role as 
kingmaker or breaker in Iraq, in no small part through the network of 
militias he had created, groomed, trained, and resourced from the early 
months after the 2003 invasion of Iraq. As my colleague, Phillip Smyth, 
has neatly put it, ``Iran's Shia militia network are their true nuclear 
program and one that has achieved measurably huge results for Tehran'' 
in the region.
    At the time of his death Soleimani thus appeared to be a Colossus 
bestride the region. He was a cult figure for Iran's legions of foreign 
Shia proxies, and an interlocutor respected and feared in equal measure 
by officials in Iran's near-beyond.
    But if Soleimani's demise at U.S. hands has electrified both 
regional and foreign audiences, the operation's second major casualty--
collateral damage or intended target, depending on the U.S. official 
asked--is potentially as impactful for Iraq, and therefore for U.S. 
interests. Al Muhandis was both head of the most powerful militia in 
Iraq, Kata'ib Hezballah, and as Deputy Commander of the PMF exerted 
far-reaching command and control over nearly 50 other organizations in 
the PMF network; his killing will have direct bearing on the future of 
the U.S. military presence in Iraq and our ability to counter terrorist 
threats to the U.S. homeland.
                                  iraq
    History shows us that removing a leader of violent movements--even 
one as supremely capable, influential, and charismatic as Soleimani--is 
rarely sufficient on its own to permanently disrupt the trajectory of 
events or even the organization itself. In Iran, Soleimani leaves 
behind a well-oiled, disciplined machine acting on behalf of a 
powerful, if economically stressed, state. Iran's Supreme Leader moved 
immediately to appoint Ismail Qaani, Soleimani's deputy in the Quds 
Force, as successor. This move reinforced the dual message of 
organizational continuity and Iran's relentless commitment to the 
Resistance cause. In the days to follow, IRGC leaders underlined the 
latter point in public messaging: With the commander of the IRGC 
flanked by the flags of member groups of regional resistance, including 
that of Iraq's Hashd al Shaabi, and with IRGC-Quds Force commander 
Qaani's meeting with individual commanders of Iraq's Shia militia 
community.
    In Iraq, a hard push by Iranian-affiliated militias--through their 
representation at the highest levels of the Iraqi government and their 
political representation in the parliament--has resumed to affect the 
departure of the 5,000-strong U.S. military training mission. Qassem 
Soleimani's project for post-ISIS Iraq was to end the U.S. military 
presence in Iraq, and with its departure, to reduce to the degree 
possible U.S. influence there. An earlier effort in Iraq's Council of 
Representatives in the spring of 2019 was sidelined. But in the wake of 
Soleimani's death, the Council passed a non-binding resolution 
requesting the government begin the process for ending the foreign 
troop presence in Iraq; passed with a fraudulent quorum, the vote was 
obtained after overt threats by KH and its allies against MPs. 
Notwithstanding those threats, virtually all Kurdish and Sunni MPs 
stayed away from the vote. And notwithstanding the fraudulent nature of 
the parliamentary vote, Iraq's acting PM repeatedly announced his 
request of the United States to begin consultations on winding up the 
U.S. military mission.
    The pressure by Iranian-backed militias is unrelenting--within the 
government, on the acting PM, on Shia and Kurdish politicians, and most 
brutally, against the throngs of Iraqi protestors across Baghdad and 
southern, Shia-dominated Iraq, who have rejected both Iranian 
interference and the recent threat-induced parliamentary vote.
    Prominent Iraqi militia leaders like Asaiab Ahl Al Haq's Qais al 
Khazali have publicly declared that Tehran's missile strike, while 
honoring Soleimani, would not suffice as a response for Al Muhandis' 
death. Iraqi militia leaders have made overt threats to resume kinetic 
targeting of U.S. military personnel; indeed, there have been several 
instances of rockets falling in Baghdad since the Iranian missile 
strikes. For the moment, Iraq's Iranian-affiliated militia community 
appears to be following Tehran's direction to pause, but that is a 
pause likely to be short-lived.
                            the pmf problem
    Iraq's evolution since 2003 has been as much shaped by Qassem 
Soleimani's vision for the country as by the energy, money, and lives 
spent under 3 successive U.S. administrations. Soleimani's focus on 
Iraq was unblinking and unsparing; his approach reflected the 
perspective of a war-time generation of leaders, that Iraq posed the 
foremost National security threat to Iran. Thus Soleimani worked 
methodically and largely successfully for a set of unvarying objectives 
there: An Iraq always weak vis-a-vis Iran, its Shia-majority political 
class reliant on and deferential to his ``guidance,'' and above all, 
the government itself suborned and weakened by a set of proxy armed 
actors not under the State's control and largely responsive to Iranian 
direction. Today approximately 3 dozen such militias operate in Iraq, 
commanding some 60,000 members.
    The Iraq of 2020 aptly reflects Soleimani's efforts. With the 
departure of U.S. troops in 2011, Iraqi militias were re-directed by 
Soleimani to Syria's civil war, where they gained critical battlefield 
experience, under IRGC-QF direction fighting on behalf of Bashar Al 
Assad. In the crisis of ISIS' surge across northern Iraq in 2014 and 
with Grand Ayatollah Sistani's exhortation to Iraqi youth to volunteer 
for the fight, Soleimani oversaw and shaped directly the explosion of 
Iraqi militias and took a role on the battlefield in directing their 
efforts. In 2016 the militias were folded formally into the Iraqi 
security forces and termed the Popular Moblilization Forces. Iraqi 
National Security Advisor Falah Fayyad is double-hatted as its 
commander, but the real power to the organization lay with its Deputy, 
KH Commander Abu Mahdi Al Muhandis--not with the PM, to whom, 
Commander-in-Chief, the PMF notionally reported. Securing the funding 
of the state, the member militias of the PMF from the outset retained a 
dual-key chain of command, retaining primary loyalty to their political 
commanders, many of whom in turn followed Iranian ``guidance,'' if not 
direction.
    These militias flout Iraqi law and the constitution in myriad ways; 
they did so in recruiting fighters for Syria, and they do so currently 
in operating training sites and arms depots that are no-go zones for 
the Iraqi security forces. But nowhere has that allegiance to a set of 
leaders outside the State--outside Iraq itself--been more evident than 
in the repeated targeting of U.S. military training sites and U.S. 
diplomatic facilities by KH, AAH and other militias for the past 18 
months; their participation in Iran's program to transfer advanced 
missile technology to Lebanese Hezballah; and KH's targeting of the 
Saudi East-West pipeline.
    Thus is born a militia state, or one at real risk of becoming so. 
With the fall of Mosul to Iraqi government forces in December 2017, the 
Iraqi government should have moved to complete the transformation or 
compulsory demobilization of the constituent members of the PMF into 
the ISF. It was unable to do so. As recently as September 2019 the 
Iraqi PM felt compelled to issue an ultimatum to the PMF to hand over 
weaponry to the state, permit ISF access to militia arms depots and 
bases, and to cease all unlicensed activities. The reason? Press 
reports identifying KH as the entity behind the May 2019 attack on 
Saudi Arabia, and months of apparent foreign airstrikes on KH arms 
depots that were supporting Iran's work to transfer advanced missile 
technology to Lebanon for Hezballah. But to no effect.
    With Abu Mahdi Al Muhandis's death, and a successor still unnamed, 
the key Iraqi militias of significance, closest to Iran, remain in a 
state of uncertainty. They are maneuvering rapidly to try to shape the 
next government, however.
    The most important of the militias closely affiliated with the Quds 
Force--the Badr Organization, Kata'ib Hezballah, Asaib Ahl Al Haq, 
Kata'ib Al Imam Ali, Kata'ib Sayyid Al Shuhada--also command the lion's 
share of the PMF rank and file, 18-25,000 for Badr alone, and the rest 
comprising somewhere in the range of 31,000 members. They have all 
deployed ``in-theatre''--in Syria; several participate actively in 
Iran's ``precision missile'' project to move parts and technology from 
Iran through Iraq and Syria to Lebanon; several have engaged in lethal 
support and training for extremists in Bahrain, and 1--KH--to date has 
engaged in attacks outside Iraq/Syria, on Saudi Arabia. While smaller 
by far in numbers, the phenomenon of drawing foreign fighters into 
their ranks from Europe (generally dual-national citizens) to fight in 
militia ranks in Syria has been observed. One possible model for the 
future--the risk of reverse flows, establishment of cells abroad as 
Hezballah has done successfully--should certainly not be ruled out.
                                the gulf
    The long-standing U.S. military presence in the Middle East ranges 
currently between 50-65,000 personnel, fully half of whom at any given 
time may be stationed in the 6 Gulf Cooperation countries. While the 
U.S. naval presence in Bahrain, now headquarters of the Fifth Fleet, 
dates back to the late 1940's, our operating presence in the other Gulf 
countries largely date to immediately after the first Gulf War; U.S. 
forces in Saudi Arabia being a particularly sensitive issue internally, 
the United States has not had ``permanent'' stationing of troops there 
since 2003, although the administration has sent several thousand to 
the Kingdom in recent months in response to last year's attacks on 
Saudi energy infrastructure by Iran.
    Yet despite that presence, there is no question that the GCC 
countries--with the possible exception of Oman--have felt 
extraordinarily exposed and vulnerable for the last 8 months, a period 
of sustained, escalating tensions between the United States and Iran 
and thinly-disguised attacks by the latter on Gulf energy 
infrastructure and oil tankers traversing the Gulf. Persian Gulf energy 
fuels the world economy, meeting nearly 20 percent of global demand. 
But these small and vulnerable states are also uniformly embarked on 
efforts to diversify their economies away from fossil fuel dependency, 
redefining themselves as hubs for tourism, transportation, finance and 
banking, and manufacturing--sectors which depend every bit as global 
oil markets do on a secure and stable environment.
    Notwithstanding decades-long huge investments by the GCC countries 
in U.S. and European weapons systems, including missile defense, these 
6 countries remain hugely vulnerable. With small populations, economies 
which have developed with a significant dependency on expatriate labor, 
the GCC countries are particularly vulnerable to Iran's full suite of 
asymmetrical tools, cyber in particular. For countries that rely on 
desalinization for 95 percent of their potable water supply, that 
import 90-95 percent of their foodstuffs, that have diversified their 
economies by making themselves hubs for global trade, air traffic, 
shipping and finance, a prolonged takedown of the electrical grid alone 
would be devastating.
    U.S.-Iran tensions soared with the administration's announcement in 
April 2019 that it would aim to ``drive to zero'' Iran's oil exports; a 
stark U.S. warning to Iran followed on May 5--asserting intelligence 
indicated possible Iranian intentions to target American citizens or 
facilities in the Gulf and Iraq--that any Iranian attack on ``U.S. 
interests or those of its partners (would) be met with unrelenting 
force.'' Iran responded exactly 1 week later with attacks on 4 tankers 
berthed off the UAE coastline; 2 days later, the Saudi East-West 
pipeline was hit by explosive-bearing drones, later determined to have 
been launched by one of Iran's closest proxies in Iraq, Kata'ib 
Hezballah. Thus ensued months of thinly-veiled attacks by Iran--on a 
U.S. drone, on Saudi oil pipelines, on foreign tankers, and most 
spectacularly on Sept 14, on the heart of the Saudi energy enterprise 
in Abqaiq.
    The administration's responses throughout these months were 
contradictory and confusing. Secretary Pompeo made an early trip to 
Baghdad to warn Iraqi leaders--who we can be certain passed this 
message immediately to Tehran--that the United States would respond 
immediately, forcefully to any move against an American citizen. But 
this warning--and U.S. non-response to the series of Iranian attacks 
against Gulf partners, international shipping, even to the downing of a 
U.S. drone--had the ironic effect of so strictly de-limiting what would 
be ``off limits'' that it appears Tehran boldly calculated it could 
land a strategic strike on Saudi Arabia and bear little risk of 
reprisal. This calculation was borne out, in fact.
    In the aftermath of Soleimani's death and Iran's for-now limited 
response, the question for Washington's Gulf partners remains 
unanswered--does the U.S. security umbrella extend to them? If Iran 
returns to attacks on shipping or energy infrastructure, will the 
United States respond--and if so, how? If Saudi Arabia suffers a 
further, more devastating attack, what then?
                               conclusion
    Americans are pressed by the events of the last 2 weeks to ask: Why 
do Iran's activities in the Gulf or in Iraq, via proxies or directly, 
matter for U.S. homeland security?
    No. 1: Oil: notwithstanding the new U.S. role as an energy mega-
producer, oil remains a global commodity, its price affected directly 
by security--or insecurity--in the Persian Gulf, carrying a knock-on 
effect on global economic health, including our own. The administration 
appears uncertain about how much longer the United States should wear 
the mantle of ensuring the free and unconstrained flow of energy and 
commerce in the Persian Gulf. Iran picked up on that ambivalence, as 
did our Gulf partners.
    No. 2: Counter-terrorism: Our ability to pursue robust counter-
terrorism efforts in concert with dependable allies goes directly to 
our security at home. Whether we will be able to sustain a critical 
capability-building mission for Iraqi security forces, benefit in 
intelligence-sharing and gathering from being there on the ground, and 
help direct efforts to drive toward an enduring defeat of ISIS in Iraq 
and Syria are now very much in question. ISIS cell attacks in Iraq 
alone numbered nearly 900 in 2019. And if we are compelled--or choose--
to pull U.S. trainers from Iraq, sustaining them in Syria is likely to 
be impossible. In the same vein, the relations of trust and confidence 
and influence that we sustain with our Gulf partners are critical to CT 
efforts by/through/with their policy makers, intelligence, defense, and 
finance officials.
    No. 3: Regional stability: Karim Sadjapour aptly noted this week 
Qassem Soleimani's ``sinister genius'' in marshalling both Sunni and 
Shia extremists to bring a wrecking ball early on to the U.S. project 
in Iraq, then building out ``a foreign legion'' to expand Iran's 
influence far across the Arab Middle East. Soleimani's terrible 
legacy--constructing parallel institutions to the state that suborn and 
overpower it, and follow foreign direction--is vividly on display in 
Iraq. It is a recipe for chronic instability and insecurity across a 
widening arc of territory that is home to nearly 70 million people; 
home to the globe's fourth-largest oil producer, source of a global 
extremist scourge, source of more than 8 million refugees.
    What should the United States do? Navigating the turbulence 
besetting Iraq will be paramount, to ensure the critical U.S.-led 
Coalition counter-terrorism mission there can endure, and U.S. military 
trainers can operate safely. That will require more vigorous and more 
visible engagement from Washington, backstopping the tough work in 
which our Ambassador and diplomatic staff in Baghdad and Erbil are 
engaged. And to be most effective, that effort should be robustly 
multilateral, drawing on the Coalition and the United Nations. Much has 
been made this past week on the administration's support for Iran's 
protestors, but shockingly little attention has been spared for Iraqis 
who have suffered and died for more than 3 months to press many of the 
same demands. Washington should unequivocally signal support for the 
protestors across Iraq seeking a new government, via early, clean 
elections; those same protestors have been the victims of Soleimani's 
militia project, targeted for assassination and brutal repression in 
the streets. Washington should focus its pressure, with targeted 
sanctions on both the senior government officials and the militia 
commanders responsible for the repression.
    While the administration has asserted that ``deterrence has been 
restored'' with Soleimani's death, it is fair to ask when it was lost. 
And deterrence, to be enduring and effective, cannot be built on a 
single action, however dramatic. The U.S. security umbrella for the 
Persian Gulf is well-tattered, and an honest discussion between the 
United States and its partners on how to restore it--including what 
that requires of our quarreling partners--is long overdue.
    Finally, it goes without saying that the time for vigorous 
diplomatic work is also upon us, lest the United States and Iran simply 
return to what I think of as a 40-year-long frequently violent non-
relationship. The asymmetrical threats to U.S. interests and security, 
to those of our friends in the region, that Qassem Soleimani 
constructed in more than 2 decades of dedicated work will not be undone 
through economic sanctions alone, nor do they lend themselves for the 
most part to a military response.
    As Ariane Tabatabai wrote in 2019, ``One thing the Iranians do not 
lack is options. The regime can use the (threat network) as a strike 
force to further its foreign policy goals in the region.'' The United 
States, too, has a range of options to contend with any of the threats 
to homeland security--indirect or otherwise--that Iran considers over 
the months ahead. One of the most important options for the 
administration to exercise now is diplomacy, even as we keep economic, 
cyber, covert, and conventional military tools at the ready to contain, 
deter, and disrupt Iranian resort to asymmetrical warfare. As the dust 
settles on the 2 matching ``black swan'' events of the last 2 weeks--
the most consequential U.S. strike on a foreign government official in 
modern times, and the first conventional Iranian attack on U.S. forces 
since the Iran-Iraq war--it is time to turn swiftly to identify the 
channel and the pathway to negotiations.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Lieutenant General Stewart to summarize his 
statement for 5 minutes.

  STATEMENT OF VINCENT STEWART, SPECIAL ADVISOR AND CHAIRMAN, 
    BOARD OF ADVISORS, MIDDLE EAST MEDIA RESEARCH INSTITUTE

    General Stewart. Good morning, Chairman Thompson, Ranking 
Rogers, and other distinguished Members of the committee.
    I'm honored to be here as an advisor to the Middle East 
Media Research Institute, an organization for the last 20 years 
that looked at the social and intellectual currents within 
Iran. I'd like to step back just a little bit as we talk about 
this situation in Iran as this continues to unfold.
    I believe it is more important than ever that we pause and 
put whatever short-term actions Iran takes into longer-term 
context, via Iran's desired end-state. We should strive to 
remember during times of tension that the regime's tactical 
actions are ultimately a means to an end and not the ends 
themself.
    With that I'd like to start with Iran's theory of victory 
or their desired end-state. Iran believes that it is the 
dominant regional and cultural power, and the United States and 
its allies in the region are impediments to Iran's desired end-
state. The Iranian government believes they are the victim of 
U.S. actions, are, in fact, rational actors protecting the 
region and themselves from undue foreign influence.
    Iran believes it will successfully force the United States 
to leave the region. But the question is since we are obviously 
stronger conventionally, how does Iran believe it can 
accomplish its end-state? Iran understands that its military 
capabilities will not deter the United States from conducting 
military actions and that they would eventually be overmatched 
by our armed forces.
    Iran has built a capable force of an imposed cost on the 
United States, its allies, its forward staging basis and its 
interest in the region, but cannot militarily match U.S. 
capabilities in the long term. However, Iran views asymmetric 
activities as a viable cost means--low-cost means to eject the 
United States from the region. Iran's asymmetric warfare can be 
viewed as a three-legged stool comprising of support to malign 
actors and terrorists, information operations, and a range of 
cyber activities.
    All of these components are part of a long-term campaign to 
make the U.S. cost of staying in the region untenable while 
eroding support for the United States and avoiding the 
threshold of an overt U.S. military response. Since Iranian 
military support to terrorists and malign actors is covered in 
the extensively and classified reporting, I'll focus on the 
second and third legs of the stool.
    Iranian information operations, influence operations are 
not well-understood and target several audiences, but most 
important is their own domestic population, which the regime 
seeks to keep united around nationalism and a perceived 
victimhood. Like-minded terrorists, militants, and religious 
groups are also key constituencies.
    Iran's fastest-growing audience are international, Russia 
and China, and increasingly U.S. allies in the region and 
abroad. Last, I want to highlight that with the rise of social 
media and the ease of transmitting messages, the Iranians 
increasingly see different factions inside the United States as 
information operation targets. That includes building upon the 
divide between Democrats and Republicans and convincing the 
American people that we have no interest in the region that the 
only thing we can expect from the region is enduring warfare, 
and therefore we should withdraw.
    So what are some of the messages from the Iranians? 
Geography matters. Iran has no options of leaving the region. 
We have a population of 80 million people. They have a rich 
history of culture and heritage and we will be here when the 
Americans leave. In spite of the propaganda, what they perceive 
as U.S. propaganda that they are destabilizing the region, that 
they are, in fact, rational actors on the international stage 
and conform to international norms of behavior. They go through 
this litany. ``We have complied with the joint comprehensive 
plan of action. We have taken the responsible action to defend 
our country after the attack on Soleimani'', and so they 
continue to emphasize those messages.
    The bottom line on Iranian information operations is this: 
Anything that gives the regime narrative a boost is a victory 
on the path to Iran's theater victory. Their three-legged stool 
of asymmetric warfare is carefully calibrated.
    The cost of U.S. presence is high while cultivating an 
image of being rational actors and victims. All actions and the 
reactions must be viewed through those lens. The third leg of 
their asymmetric warfare is cyber space and we will spend a 
good bit of time talking about that during this hearing. Since 
the Stuxnet event, Iran has embarked upon a comprehensive 
approach; developed both offensive and defensive cyber 
capabilities. We have seen them exercise those capabilities 
against nation-states, Saudi Aramco, against small companies, 
against our own financial system, and the Sands Casino in 2017.
    In the interest of time, the Iranians are not as capable as 
the Russians or Chinese, but they have expressed their intent 
to develop both offensive and defensive capabilities. They are 
partnering with other countries to learn, share, and counter 
our interests. They have demonstrated an ability to conduct 
attacks, incurring costs to private U.S. companies, foreign 
entities in the multi-billion--million-dollar ranges. They will 
include cyber space operations as a key component of their 
asymmetric response to the killing of Soleimani. What makes 
this foreign threat so unique is that this is the one area 
where the U.S. Government is essentially telling the U.S. 
private sectors to fend for yourself. I'll stop there and I 
look forward to your questions.
    [The prepared statement of General Stewart follows:]
                 Prepared Statement of Vincent Stewart
``All men can see these tactics whereby I conquer, but what none can 
see is the strategy out of which victory is evolved.'' Sun Tsu
    Good morning Chairman Thompson, Ranking Member Rogers, and other 
distinguished Members of the committee. I'm honored to appear before 
you today as special advisor and chairman of the board of advisors of 
the Middle East Media Research Institute (MEMRI), to discuss U.S.-Iran 
tensions and implications for homeland security. I am proud to be a 
part of an independent institution which has for over 20 years been at 
the forefront of documenting and analyzing political, social, and 
intellectual currents in Iran.
    As the situation with Iran continues to unfold, I believe it is 
more important than ever that we pause and put whatever short-term 
actions Iran takes into the longer-term context of Iran's desired end-
state. We should strive to remember during times of tension that the 
regime's tactical actions are ultimately a means to an end, and not the 
ends themselves.

``If you know the enemy and know yourself, you need not fear the result 
of a hundred battles. If you know yourself but not the enemy, for every 
victory gained you will also suffer a defeat. If you know neither the 
enemy nor yourself, you will succumb in every battle.'' Sun Tsu

    With that I'd like to start with Iran's ``theory of victory'' or 
desired end-state. Iran believes it is the rightful dominant regional 
and cultural power, and that the United States and its allies in the 
region are the impediments to Iran's desired end-state. The Iranian 
government believes they are the victims of U.S. actions and are in 
fact the rational actor protecting the region and themselves from undue 
foreign influence. Iran believes it will successfully force the United 
States to leave the region. But the question is, since we're obviously 
stronger conventionally, how does Iran believe it will accomplish its 
end-state?
    Iran understands that its military capabilities will not deter the 
United States from conducting military actions, and that they would 
certainly be overmatched by our armed forces. Iran has built a capable 
force that would impose costs on the United States, its allies, its 
forward-staging bases and its interest in the region but cannot 
militarily match United States' capabilities in the long term.
    However, Iran views asymmetric activities as a viable, low-cost 
means to eject us from the region. Iran's asymmetric warfare can be 
viewed as a three-legged stool comprising support to malign actors and 
terrorists, information operations, and a range of cyber activities. 
All of these components are part of a long-term campaign to make the 
U.S. cost of staying in the region untenable while eroding support for 
the United States and avoiding the threshold for an overt U.S. military 
response. Since Iranian military support to terrorists and malign 
actors can best be viewed through the lens of Classified reporting, 
I'll focus on the second and third legs of the stool and their 
implications.
    Iran's information operations are not well-understood and target 
several audiences. The most important is their own domestic population, 
which the regime seeks to keep united around nationalism and perceived 
victimhood. Like-minded terrorists, militants, and regional religious 
groups are also a key constituency. Iran's fastest-growing audiences 
are international: Russia and China, and increasingly U.S. allies in 
the region and abroad. Last, I want to highlight that with rise of 
social media and ease of transmitting messages, the Iranians 
increasingly see different factions inside the United States as 
information operations targets. That includes building upon the divide 
between Democrats and Republicans and convincing the American people 
that we have no interest in the region, that the only thing we can 
expect from the region is enduring warfare and therefore we should 
withdraw.
    But if those are Iran's information operations targets, what are 
its messages? Their messages include the following and all support 
Iran's theory of victory:
  <bullet> Geography matters, we Iran, have no options of leaving the 
        region, we have a population of 80 million people with a rich 
        3,000+ year history, culture, and heritage--we will be here 
        when the Americans leave.
  <bullet> In spite of U.S. propaganda that suggests we are the most 
        de-stabilizing force in the region, we are in fact, the 
        rational actor on the international stage and we conform to 
        international norms of behavior.
  <bullet> We were abiding by the Joint Comprehensive Plan of Action 
        (JCPOA) agreement, but the United States withdrew from the 
        agreement and imposed economic sanctions to force 
        renegotiations of an agreement that the other parties continue 
        to support.
  <bullet> Our most capable General was the subject of a targeted 
        assassination while visiting a sovereign country with the 
        attempt to provoke an escalation and drag us into war.
  <bullet> In response to this targeted assassination, we responded in 
        a proportional manner and launched missiles at U.S. bases in 
        self-defense with the aim of de-escalating the situation.
  <bullet> Because the missile attack would take place in the sovereign 
        state of Iraq, we alerted the Iraqis, in advance of our missile 
        strikes in compliance with international norms.
  <bullet> We will ultimately prevail in ejecting the United States 
        from the region because we have the moral high ground and you 
        lack the will to persist in the region.
    The bottom line on Iranian information operations is this: Anything 
that gives the regime's narratives a boost is a victory on the path 
toward Iran's theory of victory. Their three-legged stool of asymmetric 
warfare is carefully calibrated to make the costs of the U.S. presence 
high while cultivating an image of being the rational actor and victim. 
All actions and reactions must be viewed through that lens.
    The third leg of Iran's asymmetric efforts are in cyber space. Iran 
views cyber space as a vital tool of statecraft and internal security 
that must be developed in order to undermine enemies and threats to the 
regime. Iranian doctrine calls for cyber operations as a low cost and 
often plausibly deniable way to collect information and retaliate 
against threats. For these reasons Iran often uses proxies to hide 
cyber operations.
    Following the 2010 Stuxnet attack on Iran's uranium-enriching 
capabilities, Iran invested heavily in cyber defenses and capability. 
Since then it is thought to have carried out some major cyber attacks, 
including the 2017 attack on Saudi Aramco with the Shamoon virus, 
following which that network had to be almost completely rebuilt. Also, 
the 2018 attack on the Italian oil company Saipem, using a version of 
Shamoon, impacted hundreds of the company's servers as well as personal 
computers in the UAE, Saudi Arabia, Scotland, and India. Also probed, 
and hit, were a small dam in update New York in 2016, and the Sands 
Casino in Las Vegas in 2014.\1\ In 2018, the Department of Justice 
(DoJ) charged 9 Iranians in a wide-scale cyber-theft campaign, stealing 
more than 31 terabytes of documents and data from more than 140 
American universities and 30 American companies. Previously in March 
2016, the United States charged 7 Iranians for a coordinated campaign 
of DDoS attacks against 46 companies, mostly in the U.S. financial 
sector, from late 2011 through mid-2013. In November 2019, Iranian 
hackers were going after employees at major manufacturers and operators 
of industrial control systems used by power grids, manufacturing, and 
oil refineries.\2\
---------------------------------------------------------------------------
    \1\ npr.org/2020/01/09/794816793/Federal-authorities-warn-of-irans-
cyber-threat-capabilities, January 9, 2020.
    \2\ zdnet.com/article/hard-disk-wiping-malware-phishing-and-
espionage-how-irans-cyber-capabilities-stack-up/, January 7, 2020; 
Forbes.com/sites/kateoflahertyuk/2020/01/06/the-iran-cyber-warfare-
threat-everything-you-need-to-know/#29ba0b3015aa, January 6, 2020.
---------------------------------------------------------------------------
    The U.S. intelligence community's World-wide Threat Assessment of 
January 2019 said that Iran was attempting to build cyber capabilities 
that would enable attacks against critical infrastructure in the United 
States and elsewhere. It stated that ``Iran has been preparing for 
cyber attacks against the United States and our allies'' and that it 
was capable of ``localized, temporary disruptive effects''--including 
disrupting a large company's corporate networks for days to weeks.\3\
---------------------------------------------------------------------------
    \3\ https://www.dni.gov/files/ODNI/documents/2019-ATA-SFR_SSCI.pdf.
---------------------------------------------------------------------------
    After the January 3 killing of IRGC Qods Force commander Qassem 
Soleimani, the Department of Homeland Security released on January 4, 
2020 a bulletin warning about Iran's ``robust cyber program,'' stating 
that ``Iran is capable, at a minimum, of carrying out attacks with 
temporary disruptive effect against critical infrastructure in the 
Unites States'' and that ``an attack in the homeland may come with 
little or no warning.''\4\
---------------------------------------------------------------------------
    \4\ dhs.gov/sites/default/files/ntas/alerts/
20_0104_ntas_bulletin.pdf, January 4, 2020.
---------------------------------------------------------------------------
    On January 8, Acting DHS Secretary Chad Wolf tweeted that he had 
``visited the team at Cybersecurity and Infrastructure Security Agency 
to discuss cyber threats, election security, Iranian cyber capabilities 
& the impressive work CISA does to protect critical infrastructure. 
They've been training for years & stand vigilant to respond to any 
threat against the homeland should one arise.''\5\ Later that day, the 
House Homeland Security Committee tweeted that ``foreign cyber attacks 
could pose a serious threat to our Nation.''\6\
---------------------------------------------------------------------------
    \5\ twitter.com/DHS_Wolf/status/1214948930070482951, January 8, 
2020.
    \6\ twitter.com/HomelandDems/status/1215018179828822018, January 8, 
2020.
---------------------------------------------------------------------------
                    iran's cyber threat capabilities
    On January 6, 2020, the Cybersecurity and Infrastructure Security 
Agency (CISA) described the Iranian cyber threat:\7\
---------------------------------------------------------------------------
    \7\ cisa.gov/insights, January 6, 2020.
---------------------------------------------------------------------------
    ``Iran and its proxies and sympathizers have a history of 
leveraging cyber and physical tactics to pursue National interests, 
both regionally and here in the United States, such as:
  <bullet> Disruptive and destructive cyber operations against 
        strategic targets, including finance, energy, and 
        telecommunications organizations, and an increased interest in 
        industrial control systems and operational technology.
  <bullet> Cyber-enabled espionage and intellectual property theft 
        targeting a variety of industries and organizations to enable a 
        better understanding of our strategic direction and policy 
        making.
  <bullet> Disinformation campaigns promoting pro-Iranian narratives 
        while pushing anti-U.S. sentiments.
  <bullet> Attacks against U.S. citizens and interests abroad and 
        similar attacks in the homeland.
  <bullet> Unmanned aircraft system (UAS) attacks against hardened and 
        soft targets.''
                        official u.s. statements
    An FBI spokesperson said: ``While our standard practice is to not 
comment on intelligence products, the FBI is aware of the continued 
possibility that retaliatory actions could be taken against the United 
States and its interests abroad. [ . . . ] While there is no specific 
or credible threat to the homeland at this time, we urge the public to 
be vigilant and report any suspicious activity to law enforcement. As 
always, we will work with our intelligence and law enforcement partners 
to gather, share, and act upon threat information.''\8\
---------------------------------------------------------------------------
    \8\ thehill.com/policy/cybersecurity/477434-fbi-dhs-issue-bulletin-
warning-of-potential-iranian-cyberattacks, January 8, 2020.
---------------------------------------------------------------------------
    A January 9 DHS press release about a meeting between Acting 
Secretary Wolf, CISA, and FEMA stated that ``there are currently no 
specific, credible threats against our homeland.'' The press release 
also noted that ``Iran has a history of leveraging asymmetric tactics 
to pursue national interests beyond its conventional capabilities, and 
its use of offensive cyber operations is an extension of that doctrine. 
CISA is urging all organizations to assess their cyber readiness and 
take steps to protect their networks and assets, including adopting a 
state of heightened awareness, increasing organizational vigilance, 
confirming reporting processes, and exercising incident response 
plans.''\9\
---------------------------------------------------------------------------
    \9\ dhs.gov/news/2020/01/09/acting-secretary-wolf-receives-updates-
fema-and-cisa-traveling-honduras, January 9, 2020.
---------------------------------------------------------------------------
    round-up of recent cyber incidents with iranian involvement \10\
---------------------------------------------------------------------------
    \10\ csis.org/programs/technology-policy-program/significant-cyber-
incidents, accessed January 9, 2020.
---------------------------------------------------------------------------
  <bullet> January 6, 2020.--The website of the Texas Department of 
        Agriculture was hacked and its home page replaced with an image 
        of Soleimani and the text ``hacked by Iranian Hacker.''\11\ 
        Texas Governor Greg Abbot tweeted: ``Attempted cyber attacks 
        from Iran against Texas agency website are occurring about 
        10,000 per minute.''\12\
---------------------------------------------------------------------------
    \11\ thehill.com/policy/cybersecurity/477408-texas-department-of-
agriculture-website-featured-pro-iran-image-after, January 8, 2020.
    \12\ twitter.com/GregAbbott_TX/status/1214955296721903618, January 
2, 2020.
---------------------------------------------------------------------------
  <bullet> November 2019.--Microsoft security researchers found that in 
        the last year, an Iranian hacker group carried out ``password-
        spraying attacks'' on thousands of organizations, but since 
        October, have focused on the employees of dozens of 
        manufacturers, suppliers, or maintainers of industrial control 
        system equipment and software.
  <bullet> October 2019.--The NSA and GCHQ found that a Russian cyber 
        espionage campaign had used an Iranian hacking group's tools 
        and infrastructure to spy on Middle Eastern targets.
  <bullet> October 2019.--Iranian hackers targeted more than 170 
        universities around the world between 2013 and 2017, stealing 
        $3.4 billion worth of intellectual property and selling stolen 
        data to Iranian customers.
  <bullet> October 2019.--Iranian hackers conducted a series of attacks 
        against the Trump campaign, as well as current and former U.S. 
        Government officials, journalists, and Iranians living abroad.
  <bullet> September 2019.--Iranian hackers targeted more than 60 
        universities in the United States, Australia, United Kingdom, 
        Canada, Hong Kong, and Switzerland in an attempt to steal 
        intellectual property.
  <bullet> July 2019.--An Iranian hacking group targeted LinkedIn users 
        associated with financial, energy, and government entities 
        operating in the Middle East.
  <bullet> July 2019.--U.S. Cybercommand issued an alert warning that 
        Government networks were being targeted with malware associated 
        with a known Iran-linked hacking group.
  <bullet> May 2019.--Iran developed a network of websites and accounts 
        used to spread false information about the United States, 
        Israel, and Saudi Arabia.
            statements by iranian officials on cyber issues
    May 28, 2019.--``The Dejfa [``Digital Fortress''] apparatuses 
include 10 separate interconnected apparatuses. They are an example of 
a strong fortress [dejfa in Farsi] that primarily guards the country in 
light of cyber attacks. These apparatuses were created domestically and 
launched under the command and direction of the MAHER Center [MAHER is 
the Farsi acronym for Center for Handling and Responding to Cyber 
Events]. Dejfa is a comprehensive security program that includes a 
range of security apparatuses. Dejfa identifies a huge part of the 
threats found on-line, particularly on the National information 
network, and neutralizes them. It should be noted that the apparatuses 
that make up Dejfa are not limited only to identifying and confronting 
threats on the National information network; they also identify threats 
in infrastructure, on the internet, on equipment networks, on cell 
phones, in industrial equipment and . . . neutralize them.
    ``Dejfa is used to discover damage done by malware on-line, such as 
bots, identifying the type of malware by anti-virus collection and 
neutralization. [Using Dejfa] we identify DDoS attacks and neutralize 
them. Additionally, we analyze the damage that is reported according to 
international protocols, and confront it. Dejfa also exposes the 
threats and risks in the protocols of websites. Through Dejfa, users 
are taught to test the penetrability of software that operates on the 
internet, and to search for the level of the strikes against equipment 
that is used in the country and to confront them. With Dejfa, automatic 
security assessment is carried out in the apparatuses that operate in 
cyber space, and if they are found to be lacking the required security, 
alerts are issued.''\13\
---------------------------------------------------------------------------
    \13\ YJC.ir/fa/news, May 28, 2019.
---------------------------------------------------------------------------
    December 13, 2019.--Iranian Information and Communications 
Technology Minister Mohammad-Javad Azari Jahromi tweeted about the 
thwarting of a cyber attack on Iran: ``An organized cyber attack 
against the Iranian government's electronic systems was identified and 
thwarted by the Dejfa cyber defense. The attack was carried out as part 
of the known APT27 attack and was aimed at spying on government data. 
Servers with the file of the data for spying were identified, and we 
identified the perpetrators of the attack.''\14\
---------------------------------------------------------------------------
    \14\ https://twitter.com/azarijahromi/status/1206071513222467585.
---------------------------------------------------------------------------
    December 9, 2019.--Iranian Passive Defense Organization chairman 
Gen. Gholamreza Jalali said on the subject of a national internet for 
Iran: ``It is true that this [government] support for a national 
internet [in Iran] came late, but in any event we should be glad that a 
positive discussion about a national intranet for Iran has found a 
place also among senior government officials. I personally thank 
[Iranian President Hassan] Rohani. In my opinion, now is the best time 
to require all the apparatuses to complete the national internet . . . 
    ``The Majlis must require the government to complete all phases of 
the national internet by March 2021. One of the most important areas of 
the national internet that now has flaws is an Iranian search engine. 
Its lack was recently felt in the internet cutoff [during the November 
2019 revolt].
    ``The second priority of the national internet services is an 
Iranian email [platform] . . . Likewise, the Majlis must determine the 
fate of the domestic CDN and DNS . . . 
    ``This matter of a national internet and its urgency must be 
clearly explained to public opinion. The establishment of this network 
is not aimed at cutting off the international internet but is 
infrastructure that will allow the public to enjoy the fast, quality 
services of a national internet and at the same time will boost 
internet speed in the country. We are striving for independence in 
cyber space . . . ''\15\
---------------------------------------------------------------------------
    \15\ farsnews.com, December 9, 2019.
---------------------------------------------------------------------------
    December 9, 2019.--``One of essential things for completing the 
national intranet is a national metadata [apparatus for searching, 
cycling, cataloging, and limiting access to data on the internet]. If 
we want to provide international-level service, this project must be 
carried out, because the foundation of most of the new services is in 
metadata.''\16\
---------------------------------------------------------------------------
    \16\ farsnews.com, December 9, 2019.
---------------------------------------------------------------------------
    December 8, 2019.--Iranian President Rohani said at a Majlis 
session during the presentation of the 2020-2021 budget: ``Since the 
beginning of the 11th government, broadband capability has been 
increased 20 times over. This process will continue until we succeed in 
strengthening the national intranet, such that the public will not need 
international intranet. Recently, Supreme Leader Khamenei issued an 
order in this matter. We will monitor the implementation of this order 
in the Supreme Council of Cyberspace, and our public will notice better 
conditions in this area . . . ''\17\
---------------------------------------------------------------------------
    \17\ President's website, president.ir/fa/112698, December 8, 2019.
---------------------------------------------------------------------------
    December 2, 2019.--Iranian Passive Defense Organization Chairman 
Gen. Gholamreza Jalali said about the need for a national intranet that 
Iran is ``striving for a model of implementing the regime in cyber 
space that will be based on our regime's principles and logic . . . 
Recent events have proven a number of things on the matter of the 
national intranet. One of them is that the need for a national network 
was strongly felt. This network is expected to be independent of a 
foreign network . . . ''\18\
---------------------------------------------------------------------------
    \18\ https://www.memri.org/tv/irgc-general-gholamreza-jalali-head-
iran-civil-defense-organization-waze-israeli-tools-demonstrations-need-
intranet; https://www.shahrekhabar.com/political/157536384011529.
---------------------------------------------------------------------------
    November 26, 2019.--Gen. Jalali said: ``Today the area of war is 
not necessarily military, but is in the arena of culture, economy, 
cyber, and the creation of science--all are arenas of struggle and 
supreme effort. Therefore, now is a golden opportunity for the Basij 
members to enter the various arenas and create victory in all the 
realms . . . ''\19\
---------------------------------------------------------------------------
    \19\ IRNA, November 26, 2019.
---------------------------------------------------------------------------
    November 24, 2019.--IRGC Deputy Commander Gen. Ali Fadavi said:`` . 
. . The internet is a means by which America carries out its evil 
deeds. The Islamic Revolutionary Front will certainly enter into this 
matter in order to create an internal network for the internet, such 
that the enemy will not be able to do evil via the internet.''\20\
---------------------------------------------------------------------------
    \20\ ISNA.ir, November 24, 2019.
---------------------------------------------------------------------------
    November 12, 2019.--Gen. Jalali said, in response to a question 
about whether the reports about the cyber attack on Iran's oil 
infrastructure by America after Iran downed a U.S. drone were true, 
that these attacks had been carried out but that they had not impacted 
Iran's infrastructure.\21\
---------------------------------------------------------------------------
    \21\ ISNA.ir, November 12, 2019.
---------------------------------------------------------------------------
    November 5, 2019.--In the Passive Defense Organization, Jalali 
said: ``There is a need to act seriously to inoculate the 
infrastructure with cybersecurity. In this way, we must show our 
willingness to the public and to the enemy, to boost public morale and 
cause the enemy to despair.''\22\
---------------------------------------------------------------------------
    \22\ farsnews.com, November 11, 2019.
---------------------------------------------------------------------------
    October 30, 2019.--Iranian Information and Communications 
Technology Minister Mohammad-Javad Azari Jahromi said at a 
cybersecurity work meeting at the Munich Security Conference: `` . . . 
Iran, having been the target of cyber attacks, has increased its 
security using Dejfa. With this system, we successfully blocked 33 
million cyber attacks last year. Unilaterality and the use of sanctions 
are threats to international cybersecurity. The solution for 
cybersecurity issues is the use of a multilateral apparatus . . . 
''\23\
---------------------------------------------------------------------------
    \23\ farsnews.com, October 30, 2019.
---------------------------------------------------------------------------
    October 29, 2019.--Passive Defense Organization Chairman Gen. 
Gholamreza Jalali said in an interview on Iran's Channel 2: ``The 
Americans cannot hurt us on the cyber level because we have identified 
our own weaknesses by conducting 4 maneuvers in different sectors of 
energy, transportation, banking, etc . . . By having a powerful system 
of defense, we tricked them into our trap.''
    On the topic of Russian hackers attacking various countries: ``We 
are indeed seeking cyber defense agreements with friendly countries 
like Russia, China, India, and Pakistan. The existence of a national 
intranet and internal social networks are imperative to our country's 
security, but the Communications Ministry states that it has not been 
assigned the specific task of creating a National cyber space.
    ``We have 5 SCADA [Supervisory Control and Data Acquisition] 
systems that we developed ourselves. We used one for a gas supply 
network, but there is no consensus about their use for social networks.
    ``We are fully competitive with foreign [countries] in developing 
anti-malware [software], and it is imperative that we use anti-malware 
software that is self-developed for our country's vital networks. We 
have developed about 200 Iranian cyber products, including switches, 
routers, and security devices, and if the government gives its support, 
these products will be superior in quality to foreign products. The 
country's scientific field has shown how powerful it is.''\24\
---------------------------------------------------------------------------
    \24\ ISNA.ir, October 29, 2019.
---------------------------------------------------------------------------
    September 17, 2019.--Expediency Council secretary Mohsen Rezaee 
said at the opening ceremony for the first class of a Basij cyber corps 
officer development program: ``The Americans once fought the nations in 
the military arena. Now they are moving into cultural, economic, and 
cyber warfare. The people of the Ashura, with our enterprising and 
dedicated youth, have rendered American military equipment ineffective, 
and so the war has been drawn into new arenas.''\25\
---------------------------------------------------------------------------
    \25\ tasnimnews.com, October 17, 2019.
---------------------------------------------------------------------------
    September 11, 2017.--Iranian Army deputy chief of staff Ahmad Reza 
Pourdastan said at an appreciation ceremony for outstanding 
communications and technology personnel: ``We are facing a complex war. 
Our capacities in communications and electronic systems are good, and 
we have turned our ideas into products in a very short time. We have 
offensive and defensive capabilities in the cyber arena.''\26\
---------------------------------------------------------------------------
    \26\ tasnimnews.com, September 11, 2017.
---------------------------------------------------------------------------
    October 17, 2017.--Iranian Information and Communications 
Technology Minister Mohammad-Javad Azari Jahromi said: ``On October 17, 
2017 several Iranian websites were defaced. Fortunately, we identified 
and contained the issue, which we need to take seriously. The more 
powerful we become, the more attacks there are. Now Iran is the victim 
of cyber attacks. Security in Iran's cyber network is very important. 
We plan to train 10,000 cybersecurity experts in the next 4 
years.''\27\
---------------------------------------------------------------------------
    \27\ tasnimnews.com, 2017.
---------------------------------------------------------------------------
    July 29, 2019.--Expediency Council chairman Amoli Larijani met with 
Song Tao, head of the Chinese International Liaison Department, and 
said that cooperation in cyber administration and human rights issues 
is possible between Iran and China. Song Tao said: ``China considers 
Iran a strategic partner and a friend. Despite global developments, we 
will maintain these relations and they will grow stronger. China is 
always willing to become active in the region in cooperation with Iran 
in implementing JCPOA and ensuring peace in the region. We are willing 
to cooperate in the cyber arena. America's current steps violate 
international law, but in the future, time will be on the side of Iran 
and China.''\28\
---------------------------------------------------------------------------
    \28\ tasnimnews.com, July 29, 2019.
---------------------------------------------------------------------------
    July 23, 2019.--Highlights of statements by Passive Defense 
Organization chairman Gholamreza Jalali: They [the Americans] are 
openly declaring that they have launched a cyber war against us; 
therefore it is imperative that we fortify our capacities for cyber 
deterrence as much as possible, even though the Americans themselves 
rate Iran highly in terms of its cyber defenses. The Americans are more 
vulnerable to cyber threats than other nations because of their high 
level of dependence on cyber infrastructure. This fact has caused some 
concern due to America's invasive behavior in cyber space.\29\
---------------------------------------------------------------------------
    \29\ ISNA.ir, July 23, 2019.
---------------------------------------------------------------------------
    July 15, 2019.--Basij lieutenant commander Mohammad Hossein Sepehr 
said at the closing ceremony for the eighth assembly for cyber space 
admins: ``Khamenei says that `cyber space is as important as the 
Islamic revolution.' The cultural field is part of jihad. If we leave 
cyber space we will probably be hit. At this time, the Western faction 
is the most arrogant in its power in cyber space, due to its wealth, 
equipment, and other possibilities. At this time, the most powerful 
research is in cyber space . . . Some view cyber space as a threat, but 
it is in fact the greatest opportunity in the Muslim world. According 
to tradition, power, scope, and speed in communications are signs of 
the coming of Mahdi. It is therefore imperative that cyber space will 
be under the rule of Shi'ite followers of the 12 imams [Iranian 
Shi'ite]. Communication sciences must be under the authority of the 
Nation, which in turn is under the authority of Imam Mahdi . . . Today 
we must strengthen and bring about the wills through cyber space . . . 
''\30\
---------------------------------------------------------------------------
    \30\ farsnews.com, July 15, 2019.
---------------------------------------------------------------------------
    July 7, 2019.--IRGC commander Hossein Salami said at the unveiling 
of the Sepehr 110 Tactical Communications System and its handing over 
the relevant units: ``We can announce that we are at the cutting edge 
of the following technologies: Communication, intelligence, command, 
and control. We want IRGC communications to be among the most advanced 
in the world. The cost of science and technology in the field of 
communications, intelligence, and cyber is very high. We are on the 
front lines of expanding this knowledge. We intend to act quickly in 
this field, using our young scientists and engineers. Gradually, our 
enemies are coming to understand out true power. Our enemies are 
focused on economic warfare, psychological maneuvers, and political 
pressure in an effort to shake the will of the Iranian people to 
continue on the path of honor.''\31\
---------------------------------------------------------------------------
    \31\ tasnimnews.com, July 7, 2019.
---------------------------------------------------------------------------
    June 27, 2019.--An article by Abu Al-Fazel Nia, cultural advisor at 
the Iranian Embassy in Syria, stated: ``At the height of the media 
coverage of the situation in the Gulf and the possibility of a U.S.-
Iran war, Iran announced that it had successfully uncovered the CIA's 
espionage networks--in Iran and some countries of the region and the 
world, exposing American spies. It is possible that this news did not 
get much attention because the public was too occupied with Trump's 
changeable position toward Iran, and due to the American effort to draw 
attention away from its defeat in the cyber arena by Iran's cyber 
champions; this shows that Iranians are superior to Americans in the 
virtual arena. This Iranian accomplishment is a victory for the 
resistance--which is not only an armed resistance, but an array of 
resistance across all aspects of life; the world is trying to mislead 
the public about Iran's technological capabilities.''\32\
---------------------------------------------------------------------------
    \32\ alwatan.sy/archives/202919, June 27, 2019.
---------------------------------------------------------------------------
    June 17, 2019.--Supreme National Security Council secretary Ali 
Shamkhani said: ``Alongside the economic war and the intelligence war, 
America is carrying out cyber attacks against Iran and many countries. 
We examine and look at these threats by cooperating and having close 
ties with our partners, and we have activated protective measures 
against them.
    ``A while ago, one of the CIA's most complex cyber networks was 
exposed and damaged by the Iranian intelligence apparatus. Due to the 
cooperative anti-espionage network Iran is part of, alongside many 
other world countries, we shared information about the American network 
with our partners, which led to the uncovering and collapse of a 
network of CIA intelligence outposts and the arrests of several spies, 
who were punished in different countries. The Americans called Iran's 
action an embarrassing failure.''\33\
---------------------------------------------------------------------------
    \33\ mehrnews.com, June 17, 2019.
---------------------------------------------------------------------------
                        conclusions/assessments
    A June 25, 2019 assessment of Iran's cyber power by the Center for 
Strategic and International Studies Senior VP James Andrew stated that 
Iran's cyber operations are conducted primarily by the IRGC, the Basij, 
and Iran's Passive Defense Organization. According to the assessment, 
the IRGC is behind a series of incidents against American targets, 
Israeli critical infrastructure, Saudi Arabia, and other Gulf states. 
The Basij manages what its leaders say are 120,000 cyber war 
volunteers; while this number is probably exaggerated, the Basij uses 
its connections in universities and religious schools to recruit a 
proxy hacker force. The Passive Defense Organization is responsible for 
protecting Iran's infrastructure. There is also Iran's Supreme Council 
of Cyber Space, comprising senior military and intelligence officials.
    The assessment adds that while Iran has probed U.S. critical 
infrastructure for targeting purposes, it is not clear how successful 
an attack would be. The kind of massive denial-of-service attacks it 
carried out against major banks in 2011-2013 would not be so effective 
today, while ``the most sophisticated kinds of cyber attack (such as 
Stuxnet or the Russian actions in the Ukraine) are still beyond Iranian 
capabilities.'' However, poorly-defended targets in the United States, 
such as smaller banks or local power companies, or poorly-secured 
pipeline control systems, are vulnerable. ``What stops Iranian 
action,'' he said, ``is not a shortage of targets but rather questions 
about the utility of such attacks.''\34\
---------------------------------------------------------------------------
    \34\ csis.org/analysis/iran-and-cyber-power, June 25, 2019.
---------------------------------------------------------------------------
    Other past attacks that would not be as successful today involved 
using malicious software to wipe data, or potentially hijacking crucial 
machinery, as Iranian hackers attempted to do with the New York State 
dam in 2013.\35\
---------------------------------------------------------------------------
    \35\ washingtonpost.com/technology/2020/01/03/cyber-attack-should-
be-expected-us-strike-iranian-leader-sparks-fears-major-digital-
disruption, January 3, 2020; washingtonpost.com/politics/2020/01/06/
iran-can-use-cyberattacks-against-us-thats-not-nearly-bad-it-sounds, 
January 6, 2020.
---------------------------------------------------------------------------
    Immediately after Soleimani's killing, Jon Bateman, a former 
Defense Intelligence Agency analyst on Iran's cyber capabilities and 
now a cybersecurity fellow for the Carnegie Endowment for International 
Peace, said, ``At this point, a cyber attack should be expected.''\36\ 
However, Hoover Institution at Stanford fellow Jaquelyn Schneider 
stated: ``In an already dangerously volatile situation, the United 
States should not focus unwarranted attention on potential cyber 
attacks by Iran.'' Doing so, she added, ``is a distraction from the 
real risk of escalation--highly alert military forces in the region 
inadvertently firing at one another or crossing redlines toward all-out 
war.''\37\
---------------------------------------------------------------------------
    \36\ washingtonpost.com/technology/2020/01/03/cyber-attack-should-
be-expected-us-strike-iranian-leader-sparks-fears-major-digital-
disruption, January 3, 2020.
    \37\ washingtonpost.com/politics/2020/01/06/iran-can-use-
cyberattacks-against-us-thats-not-nearly-bad-it-sounds, January 6, 
2020; nytimes.com/2020/01/07/opinion/iran-cyber-attack-hacking.html, 
January 7, 2020.
---------------------------------------------------------------------------
                              implications
    The question is not whether the Iranians have the capability to 
attack our public and private-sector institutions, but when, where, and 
how we will respond?
    The Iranians are not as capable as the Russians or the Chinese. But 
they have expressed their intent to develop both offensive and 
defensive capabilities. They are partnering with other countries to 
learn, share, and counter our interest. They have demonstrated an 
ability to conduct attacks incurring costs to private U.S. companies 
and foreign entities in the multi-million-dollar range. They will 
include cyber space operations as a key component of their asymmetric 
response to the killing of Soleimani. What makes this foreign threat so 
unique, is that it is the one area where the U.S. Government is 
essentially telling the U.S. private sector to ``fend for yourselves.'' 
We need a National-level strategy on protection of U.S. companies from 
foreign cyber threats touching on everything from information sharing 
to insurance. Having spent the last 2 years in the private sector after 
decades in public service, I am consistently struck by how little our 
private-sector leaders understand the threat or what actions they 
should take in response. We need a common understanding of what an 
attack and war in cyber space looks like. We need increased emphasis on 
public-private partnership to achieve ``collective defense'', and we 
need increased emphasis on educating the populace on the real threat 
from cyber space activities.
    I look forward to your questions.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Warrick to summarize his statement for 
5 minutes.

 STATEMENT OF THOMAS S. WARRICK, NONRS. ESIDENT SENIOR FELLOW, 
                        ATLANTIC COUNCIL

    Mr. Warrick. Mr. Chairman, Ranking Member Rogers, Members 
of the committee, thank you for the opportunity to testify.
    One week ago today, the IRGC fired 22 missiles at 2 Iraqi 
airbases. According to the New York Times, if the attack had 
killed Americans the options put in front of the President 
would have included cyber attacks to disable Iran's oil and gas 
sector. It is important this committee asks whether the United 
States oil and gas industry would have been ready for the 
Iranian cyber attack that would have followed.
    Here is another question, not hypothetical. While Americans 
celebrated Thanksgiving, someone hit Iran with a massive cyber 
attack publicly disclosing 15 million Iranian debit card 
numbers on a social media site. The Iranians made the rare 
concession that this was, ``very big''. It is important this 
committee asks if our bank and credit card companies are ready 
if Iran tries to hack the card numbers of millions of 
Americans.
    In my testimony I'm going to discuss the 4 ways Iran 
threatens the homeland. I want to make 3 preliminary points 
about Iranian cyber attacks and then focus on Iran's peculiar 
sense of symmetry as a means of understanding how they would 
carry out threats.
    Mr. Chairman, Iran's 4 possible attack vectors are 
terrorism, cyber attacks, disinformation, and influence 
operations. Of these, terrorism is the least likely in the 
short term but it is still possible. The last state-sponsored 
attempted terrorist attack on U.S. soil was in 2011 when a 
group of IRGC Quds Force officers tried to assassinate the 
Saudi Ambassador in Washington, DC. Iran can also call on proxy 
groups like Lebanese Hezbollah.
    No. 2, cyber threats, I'll come back to in a second.
    No. 3, disinformation operations. Iran spreads false 
propaganda about the United States including the false idea 
that the United States actually supported ISIS, which obviously 
was not true.
    Fourth, influence operations. As General Stewart said and 
as there was an outstanding expose in Wired magazine in August 
2018, I note more recently Facebook and Twitter have since 
found thousands of accounts linked to the Iranian government. 
Iran is getting better at influence ops.
    Let me go back to cybersecurity and make 3 preliminary 
points. First, Iran and its allies considered the United 
States, Israel, and Saudi Arabia as responsible for each 
others' attacks. To be sure, we hold Iran responsible for the 
actions of its proxies.
    Second, the Trump administration uses sanctions and cyber 
attacks as their go-to tools. U.S. officials have admitted 
twice on background to recent cyber attacks on Iran, and as I 
mentioned earlier, the option of a cyber attack after an 
American had been killed on January 8.
    Third, the implication that it is safe for the United 
States to carry out cyber attacks against Iran is actually 
dangerous. Iran will retaliate but the cyber defenses of Iran's 
likely targets are uneven.
    Mr. Chairman, this leads me to the most important point I 
would like you to take away from my testimony. Iran's 
government follows a peculiar sense of symmetry. When the 
United States does something to Iran, Iran tends to respond, 
not in exactly the same way but the symmetry is there. Some 
examples: After the January 2 strike against Soleimani, the 
Iranian Supreme Leader told his national security council to 
``strike America directly and in exact proportion to the 
attack''.
    More strategically, in May 2018, United States maximum 
pressure sanctions slashed Iran's oil exports. Iran tried to 
show that if the United States could cut Iran's oil exports, 
Iran could cut our allies' exports, in May and June with 
attacks on tankers and a Saudi pipeline, then with a September 
14 Abqaiq attack that briefly cut Saudi oil exports in half.
    Another symmetry: On July 4, Britain seized an Iranian 
tanker that was violating international sanctions. On July 19, 
Iran seized a British tanker. On August 15, the British 
authorities released the Iranian tanker. On September 27, Iran 
released the British tanker. There is symmetry in cyber space. 
After Stuxnet targeted Iran's industrial control systems in 
2010, Iran developed a similar offensive capability and used it 
here in the United States in 2013. That took 3 years.
    In August 2012, Iran's Shamoon malware deleted 35,000 hard 
drives at Saudi Aramco. What got less publicity is that 6 
months earlier something called Wiper deleted data on national 
Iranian oil company computers. In July 2012, new U.S. sanctions 
targeted Iranian banks. Two months later Iran ramped up denial-
of-service attacks whose main targets were U.S. banks. The 
symmetry goes in the other direction.
    When the Iran Nuclear Deal was enforced, Iranian cyber 
attacks appeared to drop. More recently after the 2018 maximum 
pressure campaign, Iranian cyber attacks increased. Within 24 
hours after the June cyber attacks against Iran, private U.S. 
businesses noted an increase in Iranian cyber attacks.
    Mr. Chairman, let me briefly mention 3 points about what 
the United States should do to defend the homeland.
    First, any time the U.S. Government thinks about cyber 
offense it needs to focus just as much on cyber defense. Over 
time, Iran has improved its cyber capabilities, reduced its 
response time and shown it is capable of strategic surprise. 
This is especially a problem with Iran because of their 
peculiar sense of symmetry. Anything we do to Iran, Iran is 
likely to do back at us.
    Second, while most Federal Government computers are 
protected, U.S. civilian cyber defenses are uneven. DHS and the 
FBI both need more resources to work more closely with the 
private sector.
    Third, it is very good that DHS has increased its efforts 
since January 3 by repeating earlier warnings, issuing new 
alerts, putting out a new in-task bulletin and jointly 
releasing a joint-intelligence bulletin with the FBI.
    The Trump administration needs now to increase and elevate 
its efforts to educate the American people about what they and 
we need to do to protect ourselves. Iran is going to be a 
threat for the foreseeable future. I'd be happy to answer any 
questions.
    [The prepared statement of Mr. Warrick follows:]
                Prepared Statement of Thomas S. Warrick
                            January 15, 2020
    Mr. Chairman, Ranking Member Rogers, Members of the House Committee 
on Homeland Security, thank you for the opportunity to testify today on 
implications of current U.S.-Iran tensions on homeland security.
    In the morning hours of Wednesday, January 8, 2020, Iraqi time, the 
Iranian Islamic Revolutionary Guards Corps (IRGC) fired 22 surface-to-
surface missiles at 2 Iraqi airbases, Al-Asad and Irbil, killing no 
one. According to the New York Times this past Sunday, if that attack 
had killed any Americans, the Pentagon would have put in front of 
President Trump a set of retaliatory options that included strikes on 
an Iranian naval vessel and cyber attacks ``to partly disable Iran's 
oil and gas sector.''
    Would the United States oil and gas industry have been ready for an 
Iranian cyber attack that would likely have followed?
    That is a hypothetical question, but the next one is real. While 
Americans celebrated Thanksgiving, someone hit Iran with a massive 
cyber attack: Publicly disclosing 15 million Iranian bank debit card 
numbers on a social media site. On Wednesday, December 11, Iran's 
telecommunication minister--who previously shrugged off U.S. cyber 
retaliation for the September 14 Iranian attack on a Saudi oil 
facility--made the rare admission this was ``very big.''
    After first saying the attack was an inside job, Iran said on 
December 11 that a nation-state carried it out.
    Are we confident that all the banks and credit card companies in 
the United States are ready to defend themselves if Iran tries to hack 
into the names and card numbers of millions of Americans?
    Since the December 27 killing of an American citizen at an Iraqi 
military base outside Kirkuk, a lot of attention has rightly been paid 
to the possibility of a shooting war between Iran and the United 
States. However, for more than a decade, Iran and the United States 
have been engaged in a campaign in cyber space that affects the U.S. 
homeland. That campaign is now expanding into other arenas as well. 
Iran's campaign deserves more attention from the American people and 
the U.S. Government because it requires us to look at possible 
strategic gaps in our defenses. For example, while most Federal 
Government computers are protected, U.S. civilian cyber defenses are 
uneven.
    This campaign fits into a larger strategic picture that we can 
discuss during the question-and-answer session. Today I will go quickly 
through the 4 ways that Iran threatens the homeland. I would like to 
draw the committee's attention to 3 preliminary points about cyber 
attacks specifically. I will then focus on what I call Iran's peculiar 
sense of symmetry, which helps explain much of Iran's logic in its 
campaigns against us. Finally, I would like to respectfully suggest 
some areas where the committee may be able to help the United States 
better secure itself from Iran's efforts to target us, especially in 
cyber space.
               four ways iran threatens the united states
    There are 4 possible attack vectors that Iran could use to target 
the United States: Terrorism, cyber attacks, disinformation, and 
influence operations.
    1. Terrorism is unlikely but possible, at least in the short 
term.--The last state-sponsored attempted terrorist attack on U.S. soil 
was in 2011, when an extremely small number of IRGC Qods Force (IRGC-
QF) officers, including Abdul Reza Shahlai, tried to assassinate the 
Saudi Arabian ambassador, Adel Al-Jubeir, in a Washington restaurant. 
The plot was worked through Mansour Arbabsiar, who was arrested by the 
FBI in 2011 when his flight between Mexico City and Amsterdam landed at 
New York's John F. Kennedy airport. Arbabsiar pled guilty and 
cooperated with authorities in helping obtain evidence against other 
IRGC officers involved in the plot. Arbabsiar is now serving a 25-year 
sentence in Federal prison in Marion, Illinois. U.S. law enforcement 
officials long tried to bring Abdul Reza Shahlai to justice, most 
recently on December 5, 2019, by offering a $15 million reward for 
information leading to the disruption of his fund-raising and spending 
networks. He was reportedly the target of a separate strike in Yemen 
the night of January 2-3. Although it is unlikely the Houthis in Yemen, 
who get resources and aid from Shahlai and the IRGC-QF, would turn him 
over, the United States should continue to bring him to justice.
    Iran also can call on proxy groups like Lebanese Hizballah. On 
December 3, 2019, Ali Kourani was sentenced to 40 years in prison for 
being a sleeper operative for Hizballah's terrorist arm, the Islamic 
Jihad Organization.
    2. Cyber-threats from Iran are certain, and on-going.--DHS's 
Cybersecurity and Infrastructure Security Agency (CISA) put out a 
statement by Director Chris Krebs in June and elevated it to an alert 
on January 6 after the January 2 strike on Qasim Soleimani. DHS 
released a National Terrorist Advisory System (NTAS) Bulletin on 
January 4. DHS and the FBI have also released a Joint Intelligence 
Bulletin to State and local law enforcement. I will focus on Iran's 
cyber threats in a moment, but the extent to which the Iranians are 
improving in this area should be a concern.
    3. Disinformation operations.--Iran has used disinformation 
operations against the United States, spreading false propaganda that 
has included the outrageous idea that the United States supported ISIS. 
A State Department Inspector General report said that in 2016, one-
third of the Iraqi public held this view. Iranian disinformation was 
the chief reason.
    4. Influence operations.--Facebook and Twitter have found thousands 
of social media accounts who looked liked regular users and independent 
organizations, but were in fact linked to the Iranian government.
              three preliminary points about cyber attacks
    Mr. Chairman, permit me to go back to cyber attacks.
    First, when Iran retaliates for attacks against it, Iran and its 
allies consider the United States, Israel, and Saudi Arabia as 
responsible for each other's attacks. Iranian proxies held the United 
States responsible for a strike conducted by the Israelis. To be sure, 
the United States holds Iran responsible for the actions of Iran's 
proxies.
    Second, in recent months, the Trump administration has decided that 
sanctions and cyber attacks are their go-to tools. After the September 
14 kinetic attack on a Saudi oil facility, the Trump administration 
searched for a ``cyber silver bullet.'' President Trump was reportedly 
``reluctant to widen the conflict in a region he has said the United 
States should leave.'' And, as I noted earlier, a cyber attack was one 
of the options if the Iranians had killed anyone at Al-Asad or Irbil on 
January 8.
    This leads me to my third preliminary point. The implication that 
cyber attacks are somehow safer for the United States than kinetic 
attacks is dangerous. The cyber defenses of Iran's likely targets in 
the United States are uneven. More needs to be done to prepare the 
American people for Iranian cyber retaliation.
                   iran's peculiar sense of symmetry
    This leads me to my most important point: When it comes to the 
United States, Iran's government follows a peculiar sense of symmetry. 
When the United States does something to Iran, Iran tends to respond--
not exactly in the same way, but the symmetry is almost always there.
    This applies across the board, in both kinetic attacks and in cyber 
space. Look at what Iran said and did after the January 2 strike 
against Islamic Revolutionary Guards Corps Qods Force (IRGC-QF) Major 
General Qasim Soleimani. The next day, Iranian Supreme Leader Khamenei 
made an unusual appearance at the Iranian Supreme National Security 
Council and gave them a written order that Iran ``strike America 
directly and in exact proportion to the attack,'' as two sources told 
the New York Times.
    Consider the September 14 Iranian attack on Saudi oil facilities at 
Abqaiq: Starting in May 2018, ``maximum pressure'' U.S. sanctions 
reduced Iran's oil exports. Iran thinks it is defending itself against 
economic warfare waged by the United States. After Iran tried for a 
year to get Europe to ease the pressure, Iran showed it could reduce 
U.S. allies' ability to export oil, first in May and June with attacks 
on tankers and a Saudi pipeline, then with the Abqaiq attack that 
halved Saudi oil exports.
    Another symmetry: On July 4, Britain seized an Iranian tanker 
violating international sanctions. On July 19, Iran seized a British 
tanker. On August 15, Gibraltar authorities released the Iranian 
tanker. On September 27, Iran released the British tanker.
    Iran's sense of symmetry is more pronounced in cyber space. In 
2013, Iran developed a cyber attack capability after the ``Stuxnet'' 
malware that targeted Iran's Siemens industrial control systems (ICS) 
came to light in June 2010. From Stuxnet's discovery until Iran's first 
ICS attack was 3 years.
    On July 30, 2012, new U.S. sanctions targeted Iranian banks. Two 
months later, Iran ramped up denial-of-service attacks whose main 
targets were--U.S. banks.
    In August 2012, Iran's surprise ``Shamoon'' attack deleted 35,000 
Saudi Aramco hard drives and was described as ``the biggest hack in 
history.'' What got less publicity is that in early 2012, malware later 
dubbed ``Wiper'' deleted data on Iranian Oil Ministry and National 
Iranian Oil Company computers.
    The symmetry can be positive: When the Iran nuclear deal was in 
force, Iranian cyber attacks appeared to drop. This comes from 
anecdotal evidence, because U.S. companies are not required to report 
Iranian cyber attacks to the Department of Homeland Security.
    When the Trump administration began its 2018 ``maximum pressure'' 
campaign, Iranian cyber attacks increased within 24 hours.
    On June 20, 2019, after Iranian attacks on civilian tankers, 
President Trump retaliated by cyber attack. Private U.S. businesses 
noticed a further increase in Iranian cyber attacks.
    This leads to 3 important points: Over time, Iran has both improved 
its cyber capabilities and reduced its response time. What took Iran 3 
years to respond to in 2010, and 6 months to respond to now in 2012, is 
now down to days and hours.
    Additionally, the United States also needs to recognize that Iran 
is capable of strategic surprise. Iran achieved strategic surprise with 
the precision of its kinetic attack against Abqaiq in September 2014, 
and the apparent precision in hitting targets on January 8 at Al-Asad 
and Irbil--all without killing anyone. Iran could achieve strategic 
surprise in cyber space, and we would not know it until they hit us.
    Before I go on to discuss what we should do, I want to make one 
point clear. Iran's sense of symmetry doesn't mean that if we stopped 
what we're doing, Iran would stop being a threat to the United States 
and our allies. Iran would still continue to harbor its nuclear 
ambitions and, more importantly, it would continue its malign behavior 
that is de-stabilizing the region, including being a threat to Israel 
and other U.S. allies. We can discuss this more in the question-and-
answer session, but Iran's strategic goals have never been more clear 
than they are now, after the January 2 strike that killed Qasim 
Soleimani.
                   what u.s. policy makers should do
    Mr. Chairman, let me turn to what the United States should do to 
address the threats to the homeland from Iran. I will focus here on 
Iran's most active threat to our the cyber defenses.
    Most Federal Government computers are protected, but U.S. civilian 
cyber defenses are uneven. Iran's previous civilian targets included 
``aerospace, defense, and petrochemical companies,'' local government, 
universities, and a business owned by a prominent American supporter of 
Israel.
    On June 22, Chris Krebs, the director of DHS cybersecurity warned 
of a ``rise in malicious cyber activity . . . by Iranian regime actors 
and proxies.'' He warned of increasing Iranian use of ``wiper'' attacks 
and Iranian efforts ``to steal data and money.'' He renewed this 
warning earlier this month.
    Normally, when U.S. policy makers consider kinetic strikes, they 
activate plans to notify and protect military and civilian personnel 
and facilities. The same logic should apply for cyber attacks, but it 
doesn't.
    First, responsibility for offense and defense is divided. Cyber 
Command and the National Security Agency handle military offense and 
defense, but the FBI, DHS, and--notably--the private sector handle 
civilian defense. While there is coordination, they don't all go to the 
same meetings or have access to the same information.
    Second, notification of the private sector in advance of cyber 
attacks by the United States or our allies is not feasible because too 
many people would have to be notified. If Iran's retaliation is fast, 
decentralized, or has good opsec, the private sector will get no 
warning.
    Normally, the threat of Iranian cyber retaliation would lead the 
President and his top officials to have a frank conversation with the 
American people about why cyber attacks against Iran are necessary and 
why Americans should increase their cyber defenses, roughly analogous 
to the 1950's ``civil defense'' campaign.
    However, drawing attention to the risks of cyber attacks against 
Iran would undercut the President's goal not to be seen heading into 
another Mideast conflict. Yet the best defense is to say, publicly and 
in multiple channels, that the American people need to do more to 
defend themselves against cyber threats from Iran and elsewhere.
    DHS's campaign since January 3 of repeating earlier warnings, 
issuing an NTAS bulletin, and issuing cybersecurity alerts are all 
welcome developments. My concern is that these warnings will reach 
cybersecurity experts and people like this panel who follow threats 
from Iran very closely, but that the American people and smaller 
American businesses will not. Cyber operators are looking for the 
unlocked door.
    This starts with the basics: (1) Update your software. (2) Install 
anti-virus software. (3) Use two-factor authentication where you can. 
(4) Watch out for phishing emails. (5) And most importantly, educate 
yourself to resist efforts by our adversaries to sow division among 
Americans. Congress should give thought to how we educate both our 
young people in school and ourselves as adults. Cyber defense is a 
life-long enterprise.
    Lower-level warnings, like the CISA director's January 4 statement, 
will not be enough to deter severe criticism from the American people 
if Iran achieves strategic surprise like Iran's 2012 Shamoon attack or 
the recent Abqaiq attack.
    The United States and its allies should not ``do nothing'' in 
response to attacks like Abqaiq. Nor should we cease all measures that 
oppose Iran's destabilizing actions.
    However, because of Iran's peculiar sense of symmetry, the Trump 
administration needs to do more to prepare the American people to 
defend against Iranian cyber retaliation. Whoever was behind the 
exposure of 15 million Iranians' debit card numbers, the Iranians will 
be motivated to retaliate in kind. A possible cyber attack to partially 
disable the Iranian oil and gas sector could put America's oil and gas 
sector at risk of a comparable attack.
    Iran has shown us, twice, that the IRGC has improved its kinetic 
capabilities. It has shown us over the past 10 years it has improved 
its cyber capabilities. It's incumbent on the U.S. Government to work 
more closely with the public and the private sector to improve U.S. 
cyber defenses. Iran will continue to be a threat for the foreseeable 
future.
    I would be happy to address any questions and to go into the 
strategic issues that we haven't been able to cover so far today.
    Thomas S. Warrick is a Nonresident Senior Fellow at the Atlantic 
Council. He worked Iraq and Iran issues for the State Department from 
1997-2007 and was the Department of Homeland Security's senior Iran 
expert from 2007 until June 2019.*
---------------------------------------------------------------------------
    * Attachment has been retained in committee files.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Brigadier General Tata to summarize your 
statement for 5 minutes, and I hope I didn't ambush your name 
too much.

     STATEMENT OF ANTHONY J. TATA, CEO AND PRESIDENT, TATA 
                        LEADERSHIP GROUP

    General Tata. Chairman Thompson, Ranking Member Rogers, 
Members of the committee, thank you for inviting me here today 
for the privilege of providing comment on the important topics 
of homeland and National security.
    Killing Qassem Soleimani and Abu Mahdi al Muhandis, both 
specially-designated terrorists, provides for a safer Middle 
East and a safer homeland in America. In strategy and in 
warfare, leadership networks and resourcing matter. Soleimani 
and Muhandis were experienced commanders overseeing a vast 
terror network that executed Iran's revolutionary strategy of 
exporting terror backed by Iran's $26 billion military budget.
    Together they carried out 3 decades of terror against the 
United States and our vital interests and allies in the Middle 
East to include, but certainly not limited to, training, 
resourcing, and resupplying Shia militias in Iraq to disrupt 
U.S. operations, resourcing Hezbollah to attack Israel, 
planning and resourcing the thwarted attack on a Washington, DC 
restaurant a few miles from here, creating money-laundering 
schemes within the United States to fund terrorism, protecting 
the bin Laden family, al-Qaeda leadership and Taliban members 
immediately after the 9/11 attacks, training, resourcing and 
transporting Abu Musab al Zarqawi and other al-Qaeda members to 
fight coalition forces in Iraq, resourcing the Houthi rebels in 
Yemen to attack Yemen and Saudi Arabia, and resourcing and 
commanding multiple recent attacks against U.S. interests in 
the region.
    Just as Osama bin Laden orchestrated the attacks that 
killed nearly 3,000 Americans, Soleimani orchestrated attacks 
that killed and maimed over 6,500 Americans through improvised 
explosive devices alone. Just as bin Laden continued to pose a 
clear and present danger to American interests world-wide until 
his death, so did Soleimani. Soleimani, however, was more 
dangerous than bin Laden because he was flush with resources 
from Iran, a designated state sponsor of terror whose defense 
budget has risen 60 percent between 2015 and 2018, from $16 
billion to $26 billion.
    Soleimani developed, refined, and deployed explosively 
foreign penetrators, lethal roadside bombs made of Iranian 
milled 6-inch copper discs, PVC or steel pipe, urea nitrate, a 
blasting cap, and typically a passive infrared switch trigger. 
When a target crossed the beam on the passive infrared switch, 
it ignited the blasting cap which, in turn, detonated the 
explosives, propelling a molten copper disc at 8,000 feet per 
second through its mark, killing and maiming whoever might be 
in the projectile's path of destruction.
    Frequently, the destruction from an EFP sealed the 
vehicle's doors shut, leaving American soldiers to burn alive. 
Often Soleimani's EFPs were deployed in multiple arrays where 
several copper discs would punch through Humvees and other 
fighting vehicles, ripping arms and legs from service men and 
women. Soleimani and his chief lieutenant, Muhandis, were the 
masterminds behind and suppliers of these EFPs. Just in the 
last 18 months, 2 U.S. Federal judges each separately found 
Iran liable for their role in killing and injuring Americans in 
Iraq by providing material support to Iran's proxy terrorist 
groups.
    Those U.S. District Court cases are Karcher v. the Islamic 
Republic of Iran and Fritz v. the Islamic Republic of Iran, 
which I have included in my testimony. Evidence in both cases 
proved that Soleimani and Muhandis, both senior leaders in 
Iran's IRGC Quds Force, acted on behalf of Iran to ensure 
Americans would die. Just one quote from witness testimony in 
those cases, from General David Petraeus, the MNF-I press 
conference he spoke at in April 2007 said, ``And there's no 
question, again, that Iranian financing is taking place through 
the Quds Force of the Iranian Republican Guards Corps to 
support opposition forces in Iraq.''
    As they were moving freely about the region coordinating 
terror with Hezbollah and Shia militias in Iraq, Soleimani and 
Muhandis presented themselves in a designated combat zone as 
the leaders of a designated terrorist organizations, the Quds 
Force and Kata'ib Hezbollah. President Trump responded 
appropriately under the same authorization of use of military 
force that President Obama used against state and non-state 
actors in Iraq, Syria, Afghanistan, Yemen, the northern tier of 
Africa, and other locations.
    While serving as the deputy commanding general of U.S. 
forces in Afghanistan in 2006 and -7, I directed several combat 
missions to include drone strikes, artillery strikes, air 
assaults, and other operations, some of which found me on the 
ground with the soldiers conducting those missions.
    Everything I've seen, read, and understand regarding the 
strike underscores its legality, importance, and proportionate 
nature to reset the balance of power in the Middle East with 
respect to U.S. interests and Iranian influence. The Soleimani 
strike is consistent with U.S. National security strategy as it 
relates to Homeland Security.
    I brought a copy of the strategy today that the President 
published in 2017, that mentions pursuing threats to their 
source and defeating jihadist terrorists, and dismantling 
transnational criminal organizations, both of which the Quds 
Force is.
    Practically, in my roles as an education leader here in 
Washington, DC and in North Carolina as secretary of 
transportation, and now as a chief executive with Air Data 
Solutions, I have been steeped in analysis of threats and 
responsibility for specific homeland security infrastructure 
and citizens over the last 10 years. To include--I am concerned 
about, including cyber attacks on key infrastructure such as 
airport, air traffic systems, physical security of soft target 
such as schools and mass transit for shock value, attacks on 
seaports to impact commerce, smuggling weapons and other 
resources to enable attacks, and biological warfare against 
crops affecting our food supply.
    Finally, with Soleimani and Muhandis removed from the 
equation, we have an opportunity to positively reshape the 
dynamic in the Middle East toward peace and enhance homeland 
security. As a young United States Military Academy cadet, in 
1981 my classmates and I witnessed first-hand the return of 
U.S. hostages in Iran to American soil at West Point, where 
they spent their first weeks reintegrating. The cruelty of the 
Iranian Islamic Revolution is seared in my memory and I'm 
personally proud that we have begun to fight back.
    Thank you, sir.
    [The prepared statement of Mr. Tata follows:]
                 Prepared Statement of Anthony J. Tata
                            January 15, 2020
    Chairman Thompson, Ranking Member Rogers, Members of the 
committee--thank you for inviting me here today to provide comment on 
the important topics of homeland and National security.
    Killing Qassem Soleimani and Abu Mahdi al Muhandis, both Specially 
Designated Terrorists, provides for a safer Middle East and a safer 
homeland in America.
                      soleimani's legacy of terror
    In strategy and warfare, leadership, networks, and resourcing 
matter. Soleimani and Muhandis were experienced commanders overseeing a 
vast terror network. Backed by Iran's $26 billion military budget,\1\ 
together they carried out 3 decades of terror against the United States 
and its vital interests and allies in the Middle East, to include (but 
are not limited to):\2\
---------------------------------------------------------------------------
    \1\ Decoding Iran's Defence Spending, International Institute for 
Strategic Studies, November 13, 2018.
    \2\ The Exile--The Stunning Story of Osama bin Laden and Al Qaeda 
in Flight, Cathy Scott-Clark and Adrian Levy, Bloomsbury (2017).
---------------------------------------------------------------------------
    i. Training, resourcing, and resupplying Shi'a militias in Iraq to 
        disrupt U.S. operations;
    ii. Resourcing Hezbollah to attack Israel;
    iii. Planning and resourcing the thwarted attack on a Washington, 
        DC restaurant;\3\
---------------------------------------------------------------------------
    \3\ Iranian Charged in Terror Plot, The Washington Post, Jerry 
Markon & Karen DeYoung (October 12, 2011); and Iranian agents once 
plotted to kill the Saudi Ambassador in D.C.--The case reads like a spy 
thriller, The Washington Post, Reis Thebault (January 4, 2020).
---------------------------------------------------------------------------
    iv. Creating money-laundering schemes within the United States to 
        fund terrorism;\4\
---------------------------------------------------------------------------
    \4\ U.S. Attorney's Office SDNY Press Release: Hizballah Related 
Money Laundering Scheme, December 15, 2011; and U.S. Attorney's Office 
SDNY Press Release: Manhattan U.S. Attorney Announces $102 Million 
Settlement of Civil Forfeiture and Money Laundering Claims Against 
Lebanese Canadian Bank, June 25, 2013.
---------------------------------------------------------------------------
    v. Protecting the bin Laden family, al-Qaeda leadership, and 
        Taliban members immediately after the 9-11 attacks;
    vi. Training, resourcing, and transporting Abu Musab al Zarqawi and 
        other al-Qaeda members to fight coalition forces in Iraq;
    vii. Resourcing the Houthi rebels in Yemen to attack Yemen and 
        Saudi Arabia;
    viii. Resourcing and commanding multiple recent attacks against 
        U.S. interests:
    <bullet> Shooting down 2 drones
    <bullet> Seizing oil tankers
    <bullet> Attacking Saudi oil fields
    <bullet> Killing an interpreter and wounding 2 soldiers in Kirkuk
    <bullet> Attacking the U.S. embassy in Baghdad.
    Just as Osama bin Laden orchestrated the attacks that killed nearly 
3,000 Americans, Soleimani orchestrated attacks that killed and maimed 
over 6,500 Americans through improvised explosive devices alone. Just 
as bin Laden continued to pose a clear and present danger to American 
interests world-wide until his death, so did Soleimani. Soleimani, 
however, was more dangerous than bin Laden because he was flush with 
resources from Iran, a designated state sponsor of terror, whose 
defense budget has risen over 60 percent between 2015 and 2018 from $16 
billion to $26 billion.
    Unlike bin Laden, who spent his final years as an isolated hermit, 
Soleimani was able to use his title and rank as a shield from 
prosecution and retribution. He skillfully used the Iranian-state 
apparatus as his ``keys to the kingdom'' of the Middle East. With 
approval from the highest-authority in Iran, the Supreme Leader, 
Soleimani used Iranian-state-owned businesses and banks as virtual cash 
machines to fund and support his terrorist activities, and those of 
proxy groups including Hamas, Hezbollah, and al-Qaeda. To think that 
Soleimani was not planning or actively trying to kill Americans at the 
time of his death is to deny or ignore everything he had done in Iraq 
for years preceding his death. Soleimani spent those years zealously 
targeting Americans and killing them--more so than any single 
individual terrorist in recent times.
    impact on u.s. service members, contractors, and their families
    Indeed, Soleimani was an expert at death and destruction. In April 
2007 I had just returned from a 13-month tour of duty as the deputy 
commanding general of U.S. Forces in Afghanistan and was appointed as 
the deputy director of the Joint Improvised Explosive Device Defeat 
Organization--responsible for training the force, defeating enemy IEDs, 
and attacking enemy IED networks. Accordingly, we had operations and 
intelligence cells State-side and in both the Iraq and Afghanistan 
theaters of operations.
    Soleimani developed, refined, and deployed explosively-formed 
penetrators (EFPs)--lethal roadside bombs made of an Iranian-milled 6-
inch copper disc, PVC/steel pipe, urea nitrate, a blasting cap, and 
typically, a passive infrared switch trigger. When a target crossed the 
beam of the passive infrared switch it ignited the blasting cap which 
in turn detonated the explosives, propelling a molten copper disc at 
8,000 feet per second through its mark, killing and maiming whoever 
might be in the projectile's (and its many fragment's) path of 
destruction. Frequently the destruction from an EFP sealed the vehicle 
doors shut, leaving American soldiers to burn alive. Often Soleimani's 
EFPs were deployed in multiple ``arrays'' where several copper discs 
would punch through Humvees and other fighting vehicles, ripping arms 
and legs from servicemen and women. Soleimani and his chief lieutenant 
Muhandis were the masterminds behind, and suppliers of, the EFPs. 
Soleimani and his terrorist proxies spearheaded Iran's efforts to 
inflict death and destruction on Americans in an attempt to disrupt 
American foreign policy objectives in the region, and to deny the Iraqi 
people a free and democratic Iraq.
    The Department of Defense reports that, at least, 602 brave 
Americans were killed by Soleimani's lethal IEDs. While accurate, that 
number is misleading. For every casualty there are historically ten-
fold wounded. The math then suggests that Soleimani killed and wounded 
over 6,500 American servicemen and women. Even that number in no way 
captures the costs to tens of thousands of American spouses, children, 
parents, and communities all ripped apart as if they themselves were 
hit by these gruesome bombs.
                     iran and soleimani responsible
    Just in the last 18 months, two U.S. Federal judges each separately 
found Iran liable for their role in killing and injuring Americans in 
Iraq by providing material support to Iran's proxy terrorist groups. 
Those U.S. District Court cases are Karcher et al v. the Islamic 
Republic of Iran and Fritz et al v. the Islamic Republic of Iran 
(attached).** Evidence in both cases proved that Soleimani and 
Muhandis, both senior leaders in Iran's IRGC Quds Force acted on behalf 
of Iran to ensure Americans would die. Both of these cases introduced 
expert witness testimony from combat veterans on the front lines in 
Iraq that describe Iran's role in supplying EFPs to Iraqi militias that 
were carrying out these brutal attacks. I submit these 2 Federal 
district court rulings and refer to just a few quotes of supporting 
expert witness testimony \5\ buttressing each:
---------------------------------------------------------------------------
    ** Attachment A has been retained in committee files.
    \5\ Karcher, et al. v. Islamic Republic of Iran Case No. 1:16-cv-
00232-CKK (Aug. 26, 2019); and Fritz et al. v. Islamic Republic of Iran 
Case No. 1:15:cv-00456-RDM (August 2, 2018).
---------------------------------------------------------------------------
  <bullet> Former CENTCOM commander General David Petraeus said at an 
        MNF-I press conference in April 2007: ``And there's no 
        question, again, that Iranian financing is taking place through 
        the Quds force of the Iranian Republican Guards Corps (to Iraqi 
        fighters).''
  <bullet> Former Division and JIEDDO commander Lieutenant General Mike 
        Oates said: ``In fact, one of Iran's primary forms of material 
        support to the Special Groups was financing, manufacturing and 
        deploying EFPs.''
  <bullet> The State Department issued a country report that stated: 
        ``Iran's Qods Force continued to provide Iraqi militants with 
        Iranian-produced advanced rockets, sniper rifles, automatic 
        weapons, and mortars that have killed Iraqi and Coalition 
        Forces as well as civilians.''
  <bullet> Dr. David Gartenstein-Ross, said of Muhandis: ``Muhandis was 
        given Iranian citizenship in the 1990's, and became an advisor 
        to IRGC-QF commander Qasem Soleimani. Muhandis returned to Iraq 
        in March 2003 and created Kata'ib Hizballah in 2007.''
                 authorization of use of military force
    As they were moving freely about the region coordinating terror 
with Hezbollah and Shi'a militias in Iraq, Soleimani and Muhandis 
presented themselves in a designated combat zone \6\ as the leaders of 
designated terrorist organizations, the Quds Force \7\ and Kataib 
Hezbollah. President Trump responded appropriately under the same 
Authorization of Use of Military Force \8\ that President Obama used 
against state and non-state actors in Iraq, Syria, Afghanistan, Yemen, 
the Northern Tier of Africa, and other locations. Indeed, Iran never 
stopped attacking U.S. interests in the Middle East even after the Iran 
nuclear deal. Given Soleimani's assistance to al-Qaeda in the immediate 
aftermath of the 9-11 attacks, the strike on Soleimani was especially 
consistent with the AUMF. Indeed, President Trump's strike was part of 
our National security strategy of pursuing terror ``threats to their 
source.''\9\
---------------------------------------------------------------------------
    \6\ Executive Order 12744 (The Arabian Peninsula Areas).
    \7\ Executive Order 13224.
    \8\ AUMF, Pub. L. 107-40, codified at 115 Stat. 224 and passed as 
S.J.Res. 23 by the U.S. Congress on September 14, 2001.
    \9\ National Security Strategy, President Donald J. Trump, December 
2017.
---------------------------------------------------------------------------
                            imminent threat
    Commanders with combat experience leading servicemen and women in 
harm's way are required to make life-or-death threat assessments as 
part of their job. Threats requiring decisive action are usually 
kinetic and complex, derived from a vast array of information and 
intelligence that needs to be considered holistically, often times in a 
matter of moments. The forces loyal to and commanded by Soleimani and 
Muhandis had already attacked and killed an American interpreter and 
wounded 2 soldiers with rockets, and then subsequently attacked the 
U.S. Embassy in Baghdad. Whether larger successive attacks were 
minutes, days, or weeks from happening, the fact that Soleimani/
Muhandis-led terrorists had already attacked the United States twice in 
a matter of days, coupled with their Commanders' battlefield presence 
and their long and malevolent pasts, underscores the very imminence of 
a real and present threat. It would have been irresponsible for 
President Trump not to act. And he did so decisively and 
proportionally.
    While serving as the deputy commanding general of U.S. Forces in 
Afghanistan in 2006 and 2007, I directed several combat missions to 
include drone strikes, artillery strikes, air assaults, and other 
operations, some of which found me on the ground with the soldiers 
conducting those missions. Everything I have seen, read, and understand 
regarding this strike underscores its legality, importance, and 
proportionate nature to reset the balance of power in the Middle East 
with respect to U.S. interests and Iranian influence.
                           regional strategy
    This administration's policy and strategy in the region is well-
stated in the National Security Strategy document published in December 
2017, and in multiple open-source commentaries. I will summarize by 
saying broadly the strategy is to:
  <bullet> Stop Iran's drive to hegemony in the region;
  <bullet> Prevent their development of nuclear weapons;
  <bullet> Disrupt their exportation of terror around the region and 
        world;
  <bullet> Coerce the Iranian government to stop oppressing its people;
  <bullet> Root out terrorism at its source; and
  <bullet> Protect U.S. vital interests in the region.
          eliminating soleimani makes the united states safer
    The Soleimani strike is consistent with U.S. National Security 
strategy as it relates to Homeland Security. Specifically, the 2017 
National Security Strategy highlights the administration's plan to 
secure the homeland by:
    i. Secure U.S. Borders and Territory:
      a. Defend Against Weapons of Mass Destruction.
      b. Combat Biothreats and Pandemics.
      c. Strengthen Border and Immigration Policy.
    ii. Pursue Threats to Their Source:\10\
---------------------------------------------------------------------------
    \10\ Emphasis added.
---------------------------------------------------------------------------
      a. Defeat Jihadist Terrorists.
      b. Dismantle Transnational Criminal Organizations.
    iii. Keep America Safe in the Cyber Era.
    iv. Promote American Resilience.
    By definition, if we are concerned about Iran exporting terror 
either to the Middle East or to the United States, if we eliminate 
their chief exporter, Soleimani, then we have disrupted their 
operations, if not dismantled them in the near term. The Quds Force is 
tightly aligned with Hezbollah and its far-reaching terror tentacles 
around the world. They were a threat 40 years ago and they are a threat 
now. As has been our strategy for the last 2 decades, we must find 
these threats as near to their wellspring as possible and eliminate 
them.
    Practically, in my roles as an education leader here in Washington, 
DC and in North Carolina, as Secretary of Transportation of North 
Carolina, and now as a chief executive with Air Data Solutions, an 
infrastructure and agriculture imaging company, I have been steeped in 
analysis of threats to and responsibility for specific homeland 
infrastructure and citizens over the last 10 years.
    That Iranian sleeper cells exist in the United States is a matter 
of record.\11\ Soleimani's death has created confusion in the Quds and 
Hezbollah terrorist command-and-control networks and impacts the 
resourcing of terrorist operations abroad. Similarly, when we kill a 
high-value target such as Soleimani or Muhandis, their fellow 
terrorists begin communicating and making mistakes. We most likely have 
new and actionable intelligence based upon the Soleimani strike. The 
idea is to keep the pressure on the enemy and never let up.
---------------------------------------------------------------------------
    \11\ Iranian Charged in Terror Plot, The Washington Post, Jerry 
Markon & Karen DeYoung (October 12, 2011).
---------------------------------------------------------------------------
    That notwithstanding, the Iranians have long persisted with ``Death 
to America'' chants and while I believe the Soleimani strike presents 
an opportunity for diplomatic opening, there undoubtedly will be 
Iranian hard-liners who wish to continue with the reign of terror. To 
that end, since prior to recent events, I have been and remain 
concerned about:
    i. Cyber attacks on key infrastructure such as airport air traffic 
        systems;
    ii. Physical security of soft targets such as schools and mass 
        transit for shock value;
    iii. Attacks against seaports to impact commerce;
    iv. Smuggling of weapons and other resources to enable attacks;
    v. Biological warfare against crops affecting our food supply.
    These are persistent threats, which with Soleimani gone will be 
much harder for Iran to execute. The strategy now should be one of 
continuing to engage Iran with all elements of national power, 
diplomatic, informational, military, and economic, to dissuade Iran 
from its long-standing predilection to kill Americans.
    With Soleimani and Muhandis removed from the equation, we have an 
opportunity to positively reshape the dynamic in the Middle East toward 
peace and enhance homeland security. As a young United States Military 
Academy cadet in 1981 my classmates and I witnessed first-hand the 
return of the U.S. hostages in Iran to American soil at West Point 
where they spent their first weeks reintegrating. The cruelty of the 
Iranian Islamic Revolution is seared in my memory, and I am personally 
proud that we have begun to fight back.
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee--thank you again for this opportunity to discuss my 
experience and views on this important issue and with respect to 
countering terrorism and protecting the homeland. I look forward to 
answering any questions you might have.***
---------------------------------------------------------------------------
    *** Attachments B-D have been retained in committee files.

    Chairman Thompson. I thank all the witnesses for their 
testimony. I'll remind each Member that he or she will have 5 
minutes to question the panel. I will now recognize myself for 
questions.
    This hearing, ``U.S.-Iran Tensions: Implications for 
Homeland Security'' is titled because a lot of concern has been 
expressed as to whether or not with the recent incident in Iran 
are we in a safer or are we safe, or what should we look out 
for? So the question that I'd ask all the witnesses is, with 
those events of recent time in Iran, what do you believe is the 
greatest threat emanating from Iran today to the homeland?
    Ambassador Leaf.
    Ms. Leaf. Mr. Chairman, I think in the immediate term my 
biggest concern is the future of the, or the status of the U.S. 
military mission in Iraq for the reasons that I cited and that 
I went into greater detail in my written testimony. That is--
the fight against ISIS is not over. The caliphate is gone but 
the attacks happen daily across Iraq and certainly there are 
thousands of ISIS members who have access to several hundred 
million dollars of monies for their attacks. So to the degree 
that we don't navigate the turbulence in Iraq well, we're going 
to see that mission pushed out. That mission goes directly to 
Homeland Security.
    Chairman Thompson. General.
    General Stewart. The question really is, is the missile 
attack against al-Asad--sufficient to say that we have done 
something and we can de-escalate and have a conversation. I 
don't believe that's sufficient to show the magnitude of the 
attack against Qassem Soleimani. So I expect that while not a 
direct terrorist threat to the homeland, terrorist threat 
globally has increased. If nothing else Soleimani controlled, 
and I use that term advisedly, controlled militias and the 
malign actors.
    I don't know who controls those actors now. I don't know 
which ones will now say we have got to take revenge as a result 
of this activity. So I suspect that there will be some 
terrorist activity globally, time and place of choosing that 
requires a good bit of planning, but not directly to the 
homeland. The direct threat to the homeland is if the rhetoric 
continues and we decide to do something in cyber space. There 
are vulnerable areas within our cyber environment both in the 
financial and the electrical power sector.
    So if we're not doing everything to harden those positions, 
again, the uncontrolled, if not controlled or then the high-
level activities by the Iranians, we could see activity in 
cyber space, and I'm very concerned about some vulnerabilities 
there.
    Chairman Thompson. Mr. Warrick.
    Mr. Warrick. Mr. Chairman, the possibility of a terrorist 
attack by Iran here in the homeland is that: A possibility. But 
cyber attacks are a certainty. Equally certain is that Iran is 
going to continue its disinformation operations and, as well, 
that Iran is going to find ways to try to divide Americans, 
increase divisions and conflict within our society as Russia 
and China are already doing.
    I also do want to agree with Ambassador Leaf and go more to 
the point that if Iran succeeds in forcing the United States to 
withdraw from Iraq on Iran's terms, rather than on our own, 
that will be a victory that we will be paying for for many, 
many years. Finally, I also agree that the possibility of ISIS 
staging a resurgence is also a certainty. The question is 
whether U.S. forces are going to be able to contribute to 
trying to prevent that from happening.
    So that poses a long-term danger to the homeland that we 
have to take into account.
    Chairman Thompson. General.
    General Tata. Mr. Chairman, the revolution in Iran, they 
have been chanting death to America for 40 years. So I look at 
threats: Are they willing and are they able? Certainly, they 
are willing and they will remain willing as long as the 
theocracy rules Iran. So the motivation to harm Americans has 
not really changed in 40 years, and the motivation to export 
terror has not really changed in 40 years. What, what we have 
to look at is what is their capability, willing and able.
    They're totally willing. Now, are they as able today as 
they were before January 2, and my contention is with Soleimani 
removed from the battlefield, and Muhandis--we don't mention 
him a lot but Muhandis was a critical player in Iraq--with 
those 2 people, the leadership matters. I'd liken it to 
removing the queen off the chessboard. He was somebody who 
moved around diagonally, straight forward, backward, to make--
to ensure that Iran was enabling its campaign of terror to 
disrupt U.S. interests, vital interests in the region.
    With him gone, we have an opportunity now and Iran knows 
how important he is, or was to their efforts. I believe that we 
have an opportunity. The individual who has replaced him was in 
the Afghan theater for Quds Force, not as familiar with ISIS, 
not as familiar with the Iraq theater of war, much less 
capable, doesn't have the elan that Soleimani had. I believe 
that we have got an opportunity now to have a diplomatic 
outreach.
    Chairman Thompson. I now recognize the Ranking Member of 
the Full committee, the gentleman from Alabama, Mr. Rogers, for 
questions.
    Mr. Rogers. Thank you, Mr. Chairman. We have all seen over 
the last few days the massive protests in Iran and for the 
first time they are not chanting death to America and Israel. 
They are pointing the figure back at the government, in part 
because my understanding is the economic pressure they are 
under there, which they are just going to be exacerbated now by 
our European and other allies who are talking about 
implementing sanctions because of the shooting down of the 
airliner and then trying to aggressively cover it up.
    Theocracies always care about self-preservation more than 
anything else. Given this new level of tumult in their country, 
do you think that is going to heighten the chances of them 
striking out at us, or striking out at those protestors? What 
consequences would that have to our homeland security here?
    General Tata. Ranking Member Rogers, I, I think the fact 
that they are a theocracy, I think the fact that they are, as 
you mentioned, are concerned about self-preservation, primarily 
what they will try to do is preserve their regime. So as we 
look at what their capabilities are, as I mentioned they are 
willing, they want to--it is good for their business to chant 
death to America and try to eliminate Israel and have that as 
their stick, so to speak. It is good for their theocratic 
ideologs of--that, uhh, follow them, and how that translates 
into capability; they're very capable, particularly with the 
$26 billion defense budget that they've had this past year.
    So what we need to do is understand that the threats remain 
because they are still willing to do it. We have to do an 
assessment of the threats and in light of the Soleimani strike. 
What is their capability? Command-and-control is a key 
fundamental factor on the battlefield, and it is a life-long 
key factor. You know, Sun Tzu talks about it all, the clause of 
which, et cetera, and this is something that we really must 
take into account, is what is the future of Iran's Quds Force 
going forward?
    As we kill enemy leaders, they also light up the network 
and begin to talk, and make mistakes, and it provides new 
intelligence for us. So we need to have, right now, a massive 
intelligence-gathering operation, which I'm sure we do, that 
picks up on all of the dynamics going on in the Middle East 
between Iran and all of its proxies so that we can build target 
folders and continue to keep the pressure on the enemy.
    Mr. Rogers. Now, in response to the Chairman's question, 
which I think is the key question for this committee in this 
hearing is, you know, what vulnerability do we have to the 
homeland from Iran, and pretty much uniformly you all said 
cyber threats. Going back to my point about the economic 
pressure and the domestic political pressure that the Iranian 
threats have, do they really have the economic capability to 
put behind a serious cyber attack on our country?
    Mr. Warrick. Mr. Rogers, they do and that is because they 
choose to prioritize expenditures on things like the IRGC Quds 
Force instead of the things that would make investments that 
would help their own people.
    Mr. Rogers. You think that will continue even given the 
economic pressures they are having, and the protests in the 
streets. Now, it seems to me at some point to just preserve 
yourself, you have got to start shifting that money back to let 
them have services again and money to buy groceries and things 
to be able to keep your power.
    General Stewart. The cost of entering the cyber space is 
pretty low.
    Mr. Rogers. Is that right?
    General Stewart. If you can identify malware and you can--
even if you get limited amount of help in dissecting malware, 
you can turn that into a tool that you can use.
    So the entry into this space isn't high. We are not talking 
about millions and billions of dollars, but a fairly low-cost--
--
    Mr. Rogers. From what we have heard from other panels, the 
cost for defensive capabilities is pretty high. That is one of 
the reason--and you have talked in--Mr. Warrick talked about we 
need to put more money behind our defensive--more assets. So it 
sounds like the offensive threat is less expensive than the 
defensive capabilities.
    General Stewart. Well, the risk to their networks, it is 
pretty expensive to defend that, but to develop a capability 
that could be deployed whether for intelligence gathering, for 
disruption or for decisive defeat action, that cost is not 
terribly high. Now, they made a commitment to building their 
own intranet, building their down defensive capability. That 
was their first priority, but in terms of delivering offensive 
capability, that cost isn't terribly high.
    Ms. Leaf. Mr. Rogers, if I could just address another 
element of your question.
    I mean, the monies require, the budget require--first of 
all there is the prioritization as Tom Warrick noted, the 
prioritization of these asymmetrical tools including cyber, but 
also the proxies. If you look at Iraq or you look at Yemen--
well, look at Yemen. That was a very low, small investment, 
high return in terms of the pressure that it put on Saudi 
Arabia, and the pressure it put on us indirectly. In Iraq those 
militias are 6--some of them go back to the 1980's, the Badr 
organization.
    The others came up on the battlefield after the 2003 
invasion, and during the fight against ISIS. They are 
parasitical. They are much like the IRGC, moving into the 
economic space and praying on the Iraqi financial bodies. So 
that is, again, a way that Iran does things on the cheap.
    Mr. Rogers. Thank you, I yield back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the young lady from Texas for 5 minutes, Ms. Jackson 
Lee.
    Ms. Jackson Lee. Let me thank the Chairman and Ranking 
Member.
    A byline that was cited by a number of news stations after 
the attack in Iraq on the soldiers was from a soldier that said 
``I was 100 percent prepared to die''. To think as we relate to 
the issue of the impact on the homeland, we must also recognize 
the human impact and the deliberative responsibility of this 
Congress and the Executive to make informed, intelligent, and 
deeply strategized decisions. We are now living with the false 
information of weapons of mass destruction.
    In the act of war, before the inspectors were even allowed 
to determine whether they existed, we now call Iraq the endless 
war. So Ambassador Leaf, I want to ask some questions and I 
will appreciate your indulgence of quick answers. I want to get 
to all of the panelists. I'd like think that the American 
people, I'll declare, do not intend to support going to war 
with Iran. But what do you foresee as the next direct military 
conflict between the United States and Iran?
    Ms. Leaf. Given the way Iran goes at conflict, which is the 
so-called gray zone, not head-to-head conventional conflict, it 
will revert to form. So attacks on shipping, cyber, et cetera, 
against partners. I don't see the immediate quest to take a 
strike at the United States because they are outmatched, but 
they will put pressure, they are putting pressure through Iraqi 
militias. That is where the battlefield is. So I don't see a 
strike as such being the most likely prospect.
    Ms. Jackson Lee. Do you think in using proxies, such as the 
Shiite group and others, could provoke the United States, 
however?
    Ms. Leaf. That's a question I really can't answer, but it 
appears that the administration has settled on a line that if 
an American is killed, that will elicit a response.
    Ms. Jackson Lee. So we have the potential for escalation?
    Ms. Leaf. Yes, as I said earlier, I do believe we are at a 
pause, but we are still in an escalatory cycle.
    Ms. Jackson Lee. It is clear that the President made false 
statements about the Obama administration giving $250 billion 
or $150 billion when those were dollars that had been retained, 
and they were Iran's dollars. So it is important to have 
accurate information to the American people and in the process 
of deliberation.
    Lieutenant General Stewart, you said Iran's fastest growing 
audience being Russia, China, and U.S. allies in the region. 
Can you please clarify how you see their potential involvement 
and also the detriment to those, particularly the allies, in 
the region including Israel, Kuwait, Jordan?
    General Stewart. Congressman, I think probably more than 
anything else the idea that we are not acting rationally and 
that they are conforming to international norms, is the message 
and themes that they are trying to get to our allies, and some 
of our adversaries. That we, Iran, are more stable and more 
deliberative in our process. We won't escalate. We will conform 
to agreements. We want to reduce the violence. None of which 
are particularly true, but those are the messages and themes 
that they are pushing to our allies----
    Ms. Jackson Lee. That'll be part of the false narrative as 
well as saying we'll stand by you when the United States will 
not.
    General Stewart. That----
    Ms. Jackson Lee. That one of----
    General Stewart. That's certainly part of the messaging.
    Ms. Jackson Lee. That only promotes danger for our 
soldiers, for the United States. Mr. Warrick, we are all 
concerned about cyber attacks. I sit on the subcommittee 
dealing with that on this full committee, and so give us--you 
gave us really a good explanation, but give us a deep dive into 
how far into the cybersecurity system that can impact the 
average American if Iran chose to do so.
    Mr. Warrick. Representative Jackson Lee, the first thing to 
remember is that cyber attackers are looking for an open door. 
So in an open society like the United States, in effect, all of 
us who have a computer, who have a home network, who have a 
small business, are now on the front lines and are subject to 
potential attack from a country like Iran.
    What this means is an entirely new dynamic. It is no longer 
sufficient for us to guard our military bases, or our 
Government buildings. We now have to figure out an entirely new 
strategy to work with the entire American public to educate the 
American people on our collective responsibilities. This is 
going to take, I think, an entirely different and stronger 
approach that I would hope would be led from the White House, 
in a way that makes improving our cyber defenses a National 
goal, much like civil defense was a bipartisan National goal in 
the 1950's.
    Chairman Thompson. The gentlelady's time has expired.
    Ms. Jackson Lee. I thank you. Yield back.
    Chairman Thompson. The Chair recognizes the gentleman from 
North Carolina, Mr. Bishop for 5----
    Mr. Bishop. Thank you, Mr. Chairman. Thank you all for 
being here.
    You know, specifically, focusing on the purpose of today's 
hearing, there have been a number of claims in public and even 
maybe implications in some of the statements by Members today 
that there was a lack of planning by the U.S. Government 
including, perhaps, DHS for the aftermath of what happened in 
Iran. I wonder is there anybody on this panel--we have heard a 
confidential briefing, but is there anybody on this panel who 
is intimately familiar with the details of the Department of 
Homeland Security's planning or lack thereof?
    Mr. Warrick. Well, I believe, Representative Bishop, that 
would be me, but I am not going to get into any discussion of 
any Classified matters at an open hearing. Obviously you would 
want to hear from the people at DHS who are currently working 
those matters, as I left several months ago.
    But as I know you have been briefed and as DHS leadership 
has said, they are quite a few activities, operations that are 
under way now that the Department is engaged in to try to help 
protect the American people.
    I have no quarrel at all with any of those. Quite the 
contrary, I think they are excellent. I just think that there 
needs to be more of them and better funding from the Congress.
    Mr. Bishop. So to follow that up, Mr. Warrick, are such 
efforts, as a general practice, of long-standing, that is to 
say they don't just--aren't brought up in a crisis, but they as 
a matter of fact are pursued on a regular programmatic basis?
    Mr. Warrick. The Department realized after the Arbabsiar 
attack in 2011 that DHS had more actions going on against Iran 
than almost anybody else in the Government realized. I do have 
to say that that attempted terrorist attack on U.S. soil met 
with a very vigorous response from the Secretary of Homeland 
Security at the time and the entire Department leadership. I 
was very proud of having been involved in that effort.
    Mr. Bishop. Thank you, sir. General Tata, you said in the 
course of your comments that you have to do an assessment of 
threats. Would it be your expectation that those assessments 
would be on-going as a matter of course over a long period of 
time and not just started in response to a crisis?
    General Tata. That is correct, Congressman. The threat 
assessment cycle is one that is continuous, and it happens for 
overseas threats and for homeland security threats. The 
planning is all nested with the National security strategy that 
the President and the National Security advisor put out 2 years 
ago, and it very clearly talks about pursuing threats to their 
source and defeating terrorists, and defeating transnational 
criminal networks. So that is where you see DOD and DHS in the 
joint planning collaboration that happens where they assess 
threats and develop plans to counter those threats.
    Part of that planning is to fight the enemy on their 5-yard 
line and wherever they may be. Part of it is to defend our 5-
yard line to use a football analogy.
    Mr. Bishop. Thank you, General. General Stewart, in your 
testimony you talked about Iran's objectives and its asymmetric 
activities. One was to avoid the threshold for an overt U.S. 
action. It would appear that Iran miscalculated in this 
particular case. Wouldn't you agree?
    General Stewart. Specific to the missile strike on the 
bases?
    Mr. Bishop. Yes, sir.
    General Stewart. I don't think that was a miscalculation. I 
don't think Iran views that as a miscalculation. I think they 
viewed that as a demonstration that they would strike back, an 
overt demonstration that hit targets that they could reasonably 
tell their audiences that ``we have done something''.
    Mr. Bishop. Well, I think what I am getting at, and I am 
not sure if I am following you General, I am talking about the 
strike on General Soleimani and the killing of him. Do you 
think--are you saying that you think Iran anticipated that the 
United States would do that or did they miscalculation----
    General Stewart. Not at all.
    Mr. Bishop. OK. All right.
    General Stewart. Not at all.
    Mr. Bishop. One other thing is that you said that the most 
important information operation they have is on their own 
domestic population, which the regime seeks to keep united. 
Based on events of the last days, would you say they 
miscalculated on that as well and in the interest of accurate 
information, you know, I heard one public figure say that the 
killing of Soleimani is like killing Princess Di, or Elvis. 
Would you agree with that equivalence and do you think they 
have miscalculated in terms of their own population's reaction?
    General Stewart. Their population reaction actually 
switched from a support to the reaction to the Soleimani 
killing but switched as a result of the airplane strike. So 
there is no way that they could have calculated that if we make 
an accidental shoot down of a commercial aircraft that the 
population would rise up in the wake of the cry for--the 
outrage over Soleimani's killing.
    Mr. Bishop. Thank you.
    General Stewart. I don't know if I would call it a 
miscalculation. They are not dealing with it well and that 
causes some stress internally, but I wouldn't call it a 
miscalculation.
    Mr. Bishop. Thank you, sir. My time has expired. I yield 
back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from California, Mr. Correa for 5----
    Mr. Correa. Thank you, Mr. Chairman. First of all let me 
thank you for holding this most important hearing, and I'd like 
to thank our witnesses for being here today. Again, a very 
critical issue.
    I have a question for all of you on the panel here. As you 
know, Iranian General Soleimani built the world's largest 
terrorist network with international terrorists like Hezbollah. 
Now that he is out of the picture, how would you characterize 
the threats posed by Iran's proxies, Hezbollah, Hamas, other 
militias, toward the United States and abroad? Do they have 
cells in the United States?
    Is this a threat, especially given as some of you have 
stated, now that he is out of the picture, is there a call for 
revenge, and are there cells in the United States that could 
pose an immediate threat to us? Ambassador Leaf?
    Ms. Leaf. Sir, I know that Hezbollah has cellular networks 
all over the world and I think it is clear that they have them 
in the United States. To my knowledge, this does not extend to 
some of the other proxy actors, but I think it is important to 
note, going back to your original question, that the Quds Force 
will survive, has survived, will survive and continue on the 
mission that Soleimani--the vision that he defined for the 
region.
    Certainly it was a decapitation and Esmail Ghaani, his 
successor, is a character of a different type, but I have no 
doubt that they will exercise the kind of command and control 
throughout their networks, whether it is Hamas, Hezbollah, and 
certainly in Iraq in such a way that our interests will be 
threatened.
    Mr. Correa. So Ambassador, are you saying that command and 
control, despite his elimination, is still there and therefore 
there is discipline in the ranks?
    Ms. Leaf. Certainly in Iraq, yes.
    Mr. Correa. In the United States, the cells?
    Ms. Leaf. These--well, I'm going to defer to Tom Warrick on 
the issue of Hezbollah.
    Mr. Correa. Thank you. General Stewart.
    General Stewart. I don't know--I won't speak to cells here, 
but the estimates are 20- to 80,000 members make up this 
militia, 20- to 80,000. Some of them will remain under command 
and control of the IRGC Quds Force. My greater concern are 
which of the ones that will go rogue with the intent to avenge 
the death of Soleimani, the martyred Soleimani.
    Mr. Correa. That's a question mark?
    General Stewart. That's a question mark. I don't know how 
many, but even if a small percentage----
    Mr. Correa. Mr. Warrick, I'm running out of time. Excuse 
me, General.
    Mr. Warrick. So there was the recent disruption of a 
Hezbollah group including one of their sleeper operatives. It 
would be foolish of us to assume that by taking one out that 
there aren't others that need to be addressed by the FBI at the 
proper time and place. I do agree though with General Stewart 
and with Ambassador Leaf, that the Iranians would regard it as 
a ruthless but ``good at a trade'' if United States were forced 
by Iran to leave Iraq, if all they thought they had to pay was 
the price of one of their generals, I'm afraid the ruthlessness 
of the regime would make them think that was a good deal for 
them.
    Mr. Correa. General Tata.
    General Tata. Yes, Congressman, it is well-documented by 
the FBI and Southern District of New York in open source, and 
other places that there are sleeper cells here in the United 
States both for the Quds Force and for Hezbollah financing. I 
referenced in my opening statement about the hundreds of 
millions of dollars that there were being laundered by 
Hezbollah in the United States, a case brought before the 
Southern District of New York, or by the Southern District of 
New York.
    The FBI intercepting the plot by the Quds Force to attack a 
restaurant a few miles from here in Washington, DC. It would be 
naive of us to assume that there aren't other cells that we 
have not yet found. So they exist and as far as command-and-
control networks of Quds Force, you know, you take out the--you 
destroy part of that network. Certainly they will regroup and 
reassemble, but you cannot overestimate the impact of killing 
Soleimani, in my opinion.
    Mr. Correa. General Stewart, we talked about the 
capabilities, cyber, offensive capabilities of Iran. Is there a 
possibility that they could team up with Russian experts and 
come up to a greater level of threat to the homeland if they 
were to do that?
    General Stewart. In their own words, they have talked about 
partnering with a number of countries, to include the Russians, 
the Pakistanis. So in their own words they talk about sharing 
and collaborating. So if they do that they certainly can 
increase their capability.
    Mr. Correa. The Chair, thank you very much.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from Texas, Mr. Crenshaw for 5 
minutes.
    Mr. Crenshaw. Mr. Chairman, thank you everybody for being 
here. I'll start with you, Ambassador Leaf.
    You mentioned the importance of the mission in Iraq and 
that's a contentious issue across the political spectrum. Could 
you address directly why we have a mission in Iraq and address 
directly the, you know, the slogan of no more endless wars? Why 
are we there? What's the U.S. interest?
    Ms. Leaf. The importance of the U.S. military training and 
advisory mission in Iraq goes precisely to a homeland security 
issue which is ISIS, which continues to regenerate in Iraq and 
of course across the border in Syria. So that is forthrightly 
the mission, and I think it is a critical one.
    Now, the size, the shape, the duration and so forth is a 
question that we should have a very strong voice in. I agree 
firmly with what Tom Warrick said earlier. If we are seen to be 
pushed out by this collection of a militia-affiliated actors in 
Iraq, or the militias themselves, we are going to lose critical 
intelligence. The Iraqi security forces will lose critical 
training and assistance to be able to counter that threat that 
goes beyond their own homeland.
    Mr. Crenshaw. Related to that would be the question of 
Iranian influence in Iraq. If we were pushed out it would 
become an Iranian proxy state, if you will. Does that affect 
U.S. National security and related to that question, do you see 
the PMFs becoming the next Hezbollah?
    Ms. Leaf. So the way I look at it is Iraq is at real risk 
of becoming a militia state, and as such will again pose a 
threat to the security of not just the neighborhood, but more 
broadly in the region.
    Mr. Crenshaw. Mm-hmm.
    Ms. Leaf. We don't want to return to Saddam's days when 
Iraq was a real threat all across the way. So there are a 
multiplicity of these militias. They are, as I said, predatory, 
parasitical. They are thuggishly repressing hundreds of 
thousands of Iraqis who turned out with a quest to turn Iraq 
into a normal state. Iraq is not fully normal yet and it is in 
our interests to stay the course and help them do that, not 
only through this military mission, but the military mission is 
a critical component of our reason for being there.
    Mr. Crenshaw. All right. I want to move on to General 
Stewart and information operations that you mentioned. You 
talked about the use of social media by the Iranian government 
to spread their misinformation campaigns. In the last couple of 
weeks, how have you seen any change in that and how have they 
used the hyper-divisive reaction to Soleimani's killing, and 
the media narratives out there, have they used that internally 
to spread their own misinformation campaigns?
    General Stewart. I have not seen that yet but I anticipate 
that they are laying the foundations to use the divisiveness. 
They are laying the foundation for the divisions, the social 
divisions within our country. We have seen them talk about 
doing that.
    Mr. Crenshaw. Yes.
    General Stewart. But in the last 10 days I have not seen an 
increase in that level of activity.
    Mr. Crenshaw. For both Mr. Warrick and General Stewart, as 
far as the symmetry that you talked about, does Iran currently 
have even close to symmetrical capabilities as far as offensive 
cyber warfare against the United States? Is there something you 
are worried about in the future? Are you worried about it now? 
Because it is not as if we don't receive attacks from Iran in 
the cyber realm every day.
    Mr. Warrick. But I--you are right on that, Representative 
Crenshaw, but it is a fact, as General Stewart said, that 
offensive cyber operations are cheap. Defensive cyber 
operations are very expensive.
    Mr. Crenshaw. I understand. I'm trying to get a sense of 
the capability as it stands now.
    General Stewart. You don't have to have the same capability 
that the United States or Russia has. You only have to have 
one----
    Mr. Crenshaw. Yes.
    General Stewart [continuing]. Can impact the electrical 
power grid on the east coast of the United States, and the 
cascading effects of that one device, and that is why it is 
asymmetrical.
    Mr. Crenshaw. I agree with that. I just--my question is it 
is not like they haven't tried, right? I mean in Texas we had 
10,000 attacks. So are they not implementing their full 
capability yet? Is that your assessment?
    General Stewart. Well, we call every event an attack.
    Mr. Crenshaw. Yes.
    General Stewart. It might be reconnaissance.
    Mr. Crenshaw. Yes.
    General Stewart. It might be simply probing. It might be an 
attempt to simply deface. All of those are precursors to ``The 
Attack''.
    Mr. Crenshaw. Right.
    General Stewart. But generally, we are pretty cavalier 
about an event that occurs--an anomaly on a network and we can 
attribute it as an attack, and it doesn't mean that they don't 
have that capability and could, in fact, turn those probing 
events into a destructive event.
    Mr. Crenshaw. Mr. Warrick, you are very familiar with CISA 
and what they have been doing in the Department of Homeland 
Security. Is there anything they are not doing that you would 
suggest that they improve upon, because they have made quite a 
few steps in the last couple of years to improve upon 
cybersecurity in the homeland?
    Mr. Warrick. So if you look at the entire number of 
cybersecurity specialists that CISA has, that number would be 
dwarfed by putting 1 or 2 of our banks together with the number 
of cybersecurity people they have. So the staffing disparity of 
what is needed to protect the country is very different. This 
is one of the things that I would hope this committee and your 
colleagues on the Appropriations Committee would work together 
to address.
    We have totally mismatched the idea of offense and defense, 
because in the military realm it means one thing. It is totally 
different in homeland security in cyber space.
    Chairman Thompson. Gentlemen----
    Mr. Crenshaw. I am out of time. Thank you, Mr. Chairman.
    Chairman Thompson [continuing]. From Texas' time has 
expired. The Chair recognizes the young lady from New Mexico, 
Ms. Torres Small.
    Ms. Torres Small. Thank you, Mr. Chair. Thank you, Mr. 
Ranking Member. Esteemed witnesses, I really appreciate you 
being here. I want to pick up on Congressman Crenshaw's 
questions about National security. I recognize that, you know, 
what is being said here is that that is the most likely attack 
we will continue to see. Mr. Warrick, you described it as a 
certainty at this point that we will continue to see it.
    I am very interested in your conversation about a security 
gap that exists between Federal entities and some civilian 
entities. Most troubling of which are critical infrastructure 
and financial institutions. So my concern is, was you talked 
about opening a door and lots of attempts to open those doors, 
and such that all of us are now a threat. How do you see that 
impacting more rural utilities or smaller utilities, like 
water, wastewater, energy, and what can we do to address that 
threat?
    Mr. Warrick. So what the Iranians as other potential or 
actual cyber adversaries face is they literally try computer 
system after computer system until they find somebody that has 
not updated their software; that does not have antivirus 
software; that has failed to use two-factor authentication; 
that has failed to do all of the basic things that really need 
to be something that we start teaching in America's schools. 
This needs to be done exactly in the way that we did the Civil 
Defense Campaign in the 1950's.
    The difference then being that a nuclear attack was a 
horrifying possibility, but a cyber attack these days from our 
adversaries like Iran is an absolute certainty. So I would hope 
that this would get a lot more attention across the board and 
at all levels.
    What would not be something that any of us as citizens 
would want to see is a very destructive cyber attack by an 
adversary that has achieved strategic surprise against us as 
the Iranians have shown that they can do, and that there would 
have to be something like another 9/11 committee, or dare I say 
it, even a Pearl Harbor committee that would look into how did 
we miss this.
    I'm telling you right now Representative, that the mismatch 
between what CISA has in the way of resources and what the 
threat is, is a strategic vulnerability to the United States 
homeland.
    Ms. Torres Small. Mr. Warrick, thank you so much for that. 
I think looking long-term in terms of education, I think is 
very valuable. In terms of short-term and the staffing 
challenges that you described and the resources, again, I want 
to get back to rural and small utilities.
    What kind of resources does CISA need? What types of 
expertise do we need to facilitate that type of outreach?
    Mr. Warrick. So the larger utilities, obviously, have more 
resources. The smaller utilities are more uniquely vulnerable 
but cover, as you know, large areas and therefore there is more 
at risk. This is very much a situation where ways have to be 
found, obviously, to do various risk-based measurements. CISA 
has a considerable amount of expertise in trying to do those 
risk-based assessments.
    So I recognize there has to be prioritization, but I also 
recognize that our adversaries have very different 
prioritization and will look for the weakest target that they 
can find in a way of showing their dominance over us in cyber 
space.
    Ms. Torres Small. Thank you very much. Just shifting gears 
slightly, in the last time I have, in the event of a successful 
cyber attack against the United States, what is the likelihood 
of an attack being linked to the actual actor?
    Mr. Warrick. One of the challenges is that although the 
attacks take place in seconds, as General Stewart knows better 
than any of us, having been at CYBERCOM, it can take, you know, 
days, weeks, or months to try to sort out who is responsible. 
This is an asymmetry that we have to recognize and I don't 
think there is any substitute for.
    I would defer to General Stewart.
    General Stewart. Attribution remains a challenge, but we 
are seeing the actors who use certain techniques, certain 
tools, certain approaches. So it is getting a lot--I won't say 
a lot. It is getting easier to attribute, but it is still--I 
could give a tool to a proxy and that proxy could use that tool 
in multiple domains to get to the target which really makes it 
hard to define who does it.
    Ms. Torres Small. Are there specific resources that 
Department of Homeland Security could apply to increase the 
ability to correct attribution?
    Mr. Warrick. The least significant but most important is 
one that I know my colleagues have been asking for which is the 
ability to require American businesses who have been hit by a 
cyber attack to disclose relevant information to the Department 
so that they can begin understanding and assessing this.
    General Stewart. The private sector believes that the 
Department has a lot more intelligence that can attribute to 
targets than we actually do. The reality is in the private 
sector there is tremendous amount of intelligence capability. 
How we share that data, and this is why it is so important as 
public-private partnership, the sharing of the data, the 
collaboration in real time, is critical if we are going to 
attribute and react in a timely manner.
    Ms. Torres Small. Thank you. My time is expired.
    Chairman Thompson. Thank you very much. Just for the 
record, this committee led a bipartisan letter to the 
appropriators, got CISA $350 million more and we plan to go 
back again and say, based on some of the conversations today 
because we're still behind in terms of capacity. We can only 
get that capacity with investment. So----
    Mr. Warrick. Mr. Chairman, we want to thank as just private 
citizens, I thank the Members of the committee for doing that 
because that was hugely important.
    Chairman Thompson. Absolutely. The Chair recognizes the 
gentleman from Louisiana, Mr. Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman for holding this 
important hearing. I thank our witnesses for appearing today. 
I'd like to dive into the--some would say controversial killing 
of terrorists. I personally support the killing of terrorists 
in the battlefield, including President Trump's decision of 
order, precision, strike, to take out known and brutal 
terrorist Soleimani.
    Iran is a threat to our homeland and continues to be the 
leading state sponsor of terrorists groups, and proxy 
terrorists groups across the world. They provide shelter and 
training for terrorists and intend us harm. They are no friend 
to the United States of America.
    When I say, they, meaning an Iranian regime, not the 
Iranian people. One of my best friends, been my friend since 
1984, is an Iranian citizen that was stuck in his country--he 
was going to college and when the Ayatollah Khomeini took over 
and the radicals took over Iran, he was stuck in the country. 
If he went back he will be shot. To this day, he can't go back.
    So Iran, the Iranian regime is the issue and the threat 
they pose to our Nation, both our homeland and abroad, not the 
Iranian people. The Iranian people are beautiful people.
    I have come to know their culture through my friend, but 
the Iranian regime is most certainly a terrible issue that we 
must confront. I think the--I am going to ask a question to 
Lieutenant General and the Brigadier General, both my generals. 
General Stewart, I'd like you to address, if you would, in your 
written statement you mention a divide between Democrats and 
Republicans with the narrative of how this thing is rolling, 
especially on social media.
    You said that that is used by an Iranian as, ``information 
operation targets''. Can you explain in greater detail what 
that means, please?
    General Stewart. Just like we have seen with other foreign 
governments who have taken every divisive issue, every divisive 
issue and then amplified it in a social media space so that 
long before we even cast a vote, we made a determination as to 
which side is telling the truth. We have seen this done by 
other nation states. We see this being done by the Iranians. 
Any--pick your socially divisive issue, any one of them.
    Create an environment, and I won't call out any social 
media platform, create an environment, create the messages, 
drive people to those left and right lateral limits, and I have 
often said publicly and privately, I am not afraid of the 
Russians, the Chinese, the Iranians, or anyone else. I am 
concerned about the divide in our country and social media 
allows that divide to occur, and lots of us are amplifying 
those horrible----
    Mr. Higgins. Well-stated and that division as it becomes 
manifest and publicly consumed on social media is a tool that 
Iran used to recruit, is it not?
    General Stewart. I don't know how much recruiting they used 
that means, but they do cause disruption in our society and 
division in our society. It certainly could be used for 
recruiting.
    Mr. Higgins. Thank you for that clarification. Brigadier 
General Tata, in your written statement you described that the 
world is a safer place because of President Trump's call to 
kill the known terrorist Soleimani. In your opinion, do you 
believe that we are prepared to counter any future attacks by 
his successors, although to some uncertainty as there should 
be? We shook them up regarding who that successor will be. Do 
you believe we are prepared?
    General Tata. I do believe we are prepared. I think the 
intelligence and communications, and special forces, and combat 
force posture throughout the Middle East is appropriate and to 
defend U.S. vital interests which are defense of people, 
property, and the shipping lanes. Those are the key U.S. vital 
interests that we have, and of course to be able to root out 
terrorism at its source, to disrupt attacks on the homeland.
    So as we in the days after, weeks, months after the strike 
on Soleimani, the key for us in my opinion is that we have to 
have an intelligence apparatus that can continue to collect 
information, so that we can make informed decisions about how 
to continue to disrupt the terrorists that want to do us harm. 
That to me is fundamental more than anything else going 
forward.
    Mr. Higgins. Thank you for that answer and your 
clarification, and your service. Madam, gentlemen, thank you 
for appearing today. Mr. Chairman, I yield.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from New York, Mr. Rose for 5 minutes.
    Mr. Rose. Thank you, Mr. Chairman for gathering this 
extraordinary panel. I must say as well whenever Mr. Higgins 
speaks, I always consider yielding all my time to him, but I 
will resist.
    In the immediate aftermath of the killing of Qassem 
Soleimani, something that for the record I did support, there 
was a concern regarding reaching out to jurisdictions regarding 
a potential terrorist attack, cyber attack. As a New Yorker, we 
saw that there was a strong communication between the JTTF, 
NYPD, and DHS. But what I'm concerned about is that we don't 
know what we don't know about our communications with other 
jurisdictions.
    In your experience, does CISA, DHS, as a whole, do we have 
contacts with every locality? Have we built communications with 
every jurisdiction and do we have a means of at least grading 
whether they are up to a certain requirement, whether it be 
counterterrorism or cybersecurity? I'll begin with you Ms. 
Leaf.
    Ms. Leaf. I think that really falls outside my bailiwick of 
expertise and I would defer to my----
    Mr. Rose. Of course, thank you.
    General Stewart. I can't completely speak to this except 
for when I talk to industry partners who do not believe there 
is a great connection between their requirement at the, let's 
say a small or medium-sized bank, so the right connection 
within DHS to the right connection inside the IC. So from a 
commercial standpoint the sentiment is we are not well-
connected. I don't know how the Homeland Security is connected 
to the municipalities and governments, but----
    Mr. Rose. OK.
    General Stewart [continuing]. From a private-sector 
standpoint, they don't feel well-connected.
    Mr. Warrick. So to square the circle, Congressman, someone 
at DHS could show you a map that says that the entire country 
is covered by fusion centers; that the entire American economy 
is covered by sector groups that meet with specific sectors. 
That much is true, but the reality is how many people are there 
within those JTTFs and how many people are there within those 
sector groups to reach out to all of the American State and 
local law enforcement, private businesses, and others. That is 
what produces the gap, and General Stewart has correctly----
    Mr. Rose. Do you think that this gap is something that we 
should be trying to analyze and establish some type of metric?
    Mr. Warrick. I wouldn't spend a lot of time analyzing it. 
The gap has to be addressed in a very serious way and urgently, 
lest we find ourselves the victim of strategic surprise from 
somewhere.
    General Tata. Congressman, as former secretary of 
transportation in North Carolina, I had a law enforcement 
agency. I worked very closely with emergency management in 
North Carolina. I worked very closely with the Department of 
Public Safety, the equivalent of DHS at North Carolina's level, 
the Department of Transportation's work with the Highway 
Patrol.
    All of those entities have a fusion cell and emergency 
management, and we worked very closely with FEMA and DHS. What 
I saw a few years ago when I was in that position was close 
coordination between DHS, FEMA, and other law enforcement 
agencies such as the FBI.
    Now, can everything been improved always? Yes. But at the 
time the infrastructure is there and so it may be time to 
rejuvenate that or to put some emphasis on that.
    Mr. Rose. Last thing, my last minute. Can you speak to the 
potential for, and I don't think this is considered nearly 
enough, the potential for a cyber attack combined with a lower-
scale terrorist attack? Iran seems to have both capabilities, 
and do you see that on your threat landscape?
    General Stewart. It is certainly in the realm of 
possibilities, but I don't see any indication of that and I 
think that would be highly escalatory which would be 
counterproductive for the Iranians.
    Mr. Warrick. It is also true that the people who do 
terrorist attacks, and the people who do cyber attacks from 
Iran don't talk to each other.
    Mr. Rose. Can you expand on that?
    Mr. Warrick. The way Hezbollah and the Quds Force have 
organized their terrorist activities is through very tightly-
held stovepipes. This is a matter of public record. This isn't 
the least bit sensitive. If you look at the way the FBI and the 
Department of Justice detailed the actions of the Hezbollah 
sleeper operative who was recently convicted and sentenced to 
40 years in prison, you can see how tightly-stovepiped 
Hezbollah kept its operatives.
    Cyber attacks are done through totally different 
mechanisms. That is detailed in General Stewart's testimony and 
it is done through different mechanisms. It would be quite 
something if they could combine those. Let us hope they don't.
    Mr. Rose. Thank you. That's very helpful.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from Pennsylvania, Mr. Joyce for 5 minutes.
    Mr. Joyce. Thank you, Mr. Chairman. Thank you for holding 
such an important hearing today.
    It is no secret that the Iranian regime is no friend of the 
United States. If I could just briefly summarize the highlights 
from some of General Tata's comments today that we heard. 
General, you testified broadly that Soleimani was a 
specifically-designated terrorist, and his murder, his removal 
from our continent, from our world, from our lives, makes for a 
safer Middle East and a safer homeland here in the United 
States. I, for one, could not be in more agreement with this.
    Soleimani was a terrorist who had the blood of hundreds of 
American soldiers on his hands. Weakness and appeasement of 
Iran by the previous administration left the United States in a 
weaker position in the region, and led to a deeply-flawed Iran 
deal. Under the current President, we have taken a different 
tack, pulling out and seeking to re-establish against this 
rogue Iranian regime.
    General Tata, your testimony also highlights that Iran and 
its proxies have posed a threat for over 40 years. Why have the 
past strategies, including President Obama's nuclear deal, why 
have they failed to reign in Iran's hostile activities?
    General Tata. Thank you, Congressman for that question. I 
think part of it lies in the fact that Iran is a theocracy and 
they will always, as long as they are a theocracy fueled by 
extremist--Islamic extremism, they will always want to 
annihilate and remove Israel from the face of the earth. They 
will always want to destroy America and Western values.
    Fundamentally, they are in opposition with the West. So for 
my point of view, that will not change as long as they are a 
theocracy fueled by fundamentalist Islam. So the nuclear deal, 
you know, just this year we have the removal of the sanction to 
export arms that would come due and come out of the deal had it 
still been in effect. In 3 years, they would be able to import 
centrifuges and ballistic missiles.
    Five to 10 years to people in the Middle East is the bat of 
an eye, and it is something that they will provide a holding 
action while they continue to do things. The deal did not 
prevent them from conducting, obviously conducting terrorist 
attacks against the U.S. interests in the region. So it is this 
belief that we can conduct a deal with them, that will result 
in some kind of peace. What we can have is deterrence, detente, 
and, you know, establish a power to counter their power in the 
region.
    Mr. Joyce. General Tata, what additional steps--those 
deterrents that you bring to the table, what would you 
recommend that we utilize moving forward to secure our homeland 
and to mitigate additional threats from Iran?
    General Tata. Thank you, Congressman. The additional steps 
I would recommend, I have mentioned a few, ensure that we have 
robust intelligence capabilities in the Middle East to be able 
to pick up on the movement of these proxy groups and to 
determine how Iran is going to try to conduct more influence 
operations, whether or not that is kinetic or cyber. Or, you 
know, and this administration is expert at pulling the levers 
of diplomatic information, military economic power and 
synchronizing them to achieve specific effects. So they need to 
continue to do that.
    Where they struck with military precision, no collateral 
damage on a confirmed terrorist target and killed that target, 
removed him from the battlefield. Now we need to take a look at 
what lever of power can now be best applied to achieve our 
strategy that is well-stated in the National security strategy 
to achieve that strategy and move forward. Now that we have a 
deterrent effect in that region, maybe they will talk. Maybe 
they will come and achieve at least some sense of detente.
    Mr. Joyce. Thank you for your important information you 
brought to us today, and I yield my remaining time.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentlelady from Illinois, Ms. Underwood, for 5 
minutes.
    Ms. Underwood. Thank you, Mr. Chairman. Since the events in 
Iran I have been briefed by the Department of Homeland 
Security, the Department of Defense, the chairman of the Joint 
Chiefs, the Secretary of State, CIA director Haspel, and the 
acting director of National Intelligence. In the briefings I 
received information and intelligence regarding threats and the 
administration's efforts to keep us safe in the wake of the 
escalation.
    As I have learned more about the administration's military 
escalations in Iran, the question for me is, are we safer? The 
answer after much listening, reading, studying, questioning, 
and listening some more is, no.
    Americans and our allies are in greater danger. Our country 
is not safer in the wake of the Trump administration's recent 
actions. Without a doubt, General Soleimani got the fate he 
deserved and Iran remains an adversary. But after examining the 
facts, we are on less stable footing in the region.
    The military has suspended counter-ISIS activities. More 
troops have been sent into a dangerous region. Iran is now 
closer to building a nuclear weapon than they were before the 
attack and we are more isolated from our allies and partners. 
Ensuring the safety and security of Americans at home and 
abroad is my most important duty as a Member of Congress. In 
order to do that, I voted for the War Powers Resolution, and I 
pledged to work to keep our country safe from any counter 
attacks from Iran.
    In response this administration's recent actions, we know 
that Iran is more likely to deploy asymmetrical operations on 
U.S. critical infrastructure and our allies. Because of this, 
the intelligence community continues to caution that a possible 
attack led by Iran, Iranian proxies would likely include a 
malicious cyber operation. Ambassador Leaf, General Stewart, 
and Mr. Warrick, as a nurse, I am concerned about how 
vulnerable our country's hospitals are as targets of cyber 
attacks.
    What would a Wiper or ransomware attack look like if 
carried out on a hospital?
    Mr. Warrick. Representative, this would be one of the most 
serious attacks against any community, as we have seen from 
ransomware attacks that have been tried, including some that 
Iran has had its hand in. Any time you have a situation like 
that you are looking at the potential loss of patient records 
and ability to access medications, allergies, and other 
information that is necessary for the preservation of life and 
health. So this could be one of the most important types of 
targets an adversary might attack.
    General Stewart. We continue to see adversaries look at the 
hospital system, and as Mr. Warrick pointed out earlier, we are 
all part of the attack surface because we all have a smart 
device of some sort. We plug into a Wi-Fi network that is 
unsecured. Almost every one of the devices in a hospital is on 
an unsecured network to allow folks to move laterally inside 
the network, steal data, disrupt systems. We are extremely 
vulnerable in the hospital and health care sector, and this is 
not just about stealing data. This is about impacting--we have 
hearing aids now that are Bluetooth-enabled.
    Ms. Underwood. Right.
    General Stewart. So all of our systems are connected and 
all of them create an attack surface from which you can move 
laterally and be disruptive. So I think this a really important 
area to focus on securing our health care infrastructure. It 
has been targeted. It is a high priority for all of our 
potential adversaries and criminals. So it is an area that I 
think we really need to invest in and set some standards for 
securing networks.
    Ms. Underwood. Yes, sir. Ambassador Leaf, did you want to 
add anything?
    Ms. Leaf. No, not on this topic.
    Ms. Underwood. OK. What Federal resources are available for 
hospital administrators to proactively address cybersecurity 
vulnerabilities against a cyber attack from either foreign 
adversaries?
    General Stewart. I can't speak to that.
    Mr. Warrick. Yes, there is advice that is available. There 
are tactics, techniques, and procedures.
    Ms. Underwood. Mm-hmm.
    Mr. Warrick. But the problem is, of course, that 
implementing them is most often left to the communities that 
fund those hospitals. It is not a subject of a massive Federal 
grant that somehow solves the problem. It has to be done at the 
State and local level in the communities.
    Ms. Underwood. Right. So it sounds like it is an open 
vulnerability and, you know, General Stewart mentioned stealing 
data, but there is also interruptions in service delivery, 
threats to individuals' health and wellness. So this is 
something that I hope that this committee and our colleagues in 
Congress can address.
    General Stewart, in your testimony you reiterate that the 
findings presented in the world-wide threats assessment of 2019 
that, ``Iran is also attempting to deploy cyber attack 
capabilities that would enable attacks against critical 
infrastructure in the United States and allied countries.''
    Can cyber attacks perpetrated by Iran and Iranian actors 
such as the ransomware attacks on Baltimore and Atlanta, 
provide insight into the potential scope and magnitude of 
future cyber threats from Iran?
    General Stewart. So the ransomware attacks that we will see 
more of, by the way, it is a quick way to get funds. More and 
more companies are paying the ransom because they have seen the 
cost of Baltimore mitigating the ransomware attack. So these 
are criminal activities that could certainly be utilized by 
state actors to wipe data, to be disruptive and ultimately be 
disruptive on a network. So the techniques used for ransomware 
from the criminal standpoint are the same techniques that a 
nation-state could use to destroy data that they think is 
appropriate for disruption.
    Ms. Underwood. Thank you. As I stated before, as a Member 
of Congress, it is my responsibility to ensure the safety and 
security of Americans at home and abroad. I am committed to 
working with my colleagues in the House and on this committee 
so that the United States is prepared for all contingencies 
related to U.S.-Iran tensions and I yield back. Thank you.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from New York for 5 
minutes, Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman, and thank you panelists 
for being here. The discussion has been excellent and I think 
the testimony has been very well taken.
    The situation in Iran has raised, what I think is the 
biggest vulnerability in our country, and I think--I just want 
to digress for a moment which I normally ask questions, I do 
want to make some observations then ask a question. I think the 
consensus is, is that the easiest and most, perhaps, effective 
way to fight back for state actors that are bad actors, or 
individuals across the globe that are bad actors, is cyber 
attacks.
    I really do believe that we are having this discussion; we 
are talking about the things, talk about our concerns; we are 
talking about our vulnerabilities just like we did before 9/11, 
and we didn't do enough before 9/11 to stop what happened on 9/
11. It is, to me, the biggest concern I have, is the 
vulnerability to this country from cyber attacks. I think since 
9/11 we have done a very good job in the anti-terrorism field, 
not a perfect job but a much better job.
    Look at the resources that we put into the post-9/11 era to 
make us safe from terrorist activities. Now we have this 
metastasizing problem of cybersecurity. As I look at it, I do 
think it is the greatest threat to our country right now, for 
some of the reasons we discussed today. As I look at it, there 
is 4 areas I think we can focus on to really prioritize what we 
need to do. Then I want to ask a couple of questions on it.
    First is cybersecurity proficiency is the smaller the 
business, the smaller the family, the less knowledge they have 
on the issue, the bigger the problem. Banks, of course, have 
whole departments like you know that--but, you know, a lot of 
businesses can't afford that. Therefore their vulnerability is 
amazing. Target's major security breach happened because of a 
heating and air conditioning contractor, gave the bad guys 
access into the system. That is what we have got to be thinking 
about. We are not thinking about it.
    The emerging technology, some of us noticed. I think you 
noticed it. Lieutenant General with respect to, you know, 
Fitbits and the watches that we have. The internet of things is 
coming and the problems that that is going to pose for us. 
Every household in this country is going to have 20, 30, 40 
devices that provide access to the internet and provide back 
doors to cyber attacks. So that is another thing we need to 
think about.
    Even the supply chain issue with 5G technology and all of 
that. CISA and all CISA is doing. CISA is a young start-up 
company, basically, and they are doing a wonderful job under 
unbelievably difficult circumstances. The ISACs they develop 
Nation-wide have been wonderful, but it is not enough.
    Then of course, you have on top of all that, you have let 
us beef this up. You already have a shortage of 330- to 400,000 
employees, right now in this country for cybersecurity jobs. 
They project that with the next year or 2, or 3, there will be 
over a million-person shortage.
    So how do you do that without drilling down and getting 
into the school curriculums like you suggested? So this is a 
huge problem and we have done, as a committee, I think a 
remarkedly decent job of addressing and trying to get funding 
to CISA, but it is nowhere near enough and it takes much more 
than this committee.
    So with setting the doomsday scenario--I don't mean to do 
that, but at the same token, we have got to acknowledge, 
tomorrow if a bad actor wanted to flick a switch they could 
take out a grid somewhere. They could affect our water supply 
systems.
    They are not doing it probably because we can do it to 
them, but also they probably view--that we would view it as an 
act of war. So with all that being said, what should we be 
doing? I know we are talking about the problems. What should we 
be doing to try and look at this thing holistically much better 
than we have right now? Mr. Warrick, I'd ask you first.
    Mr. Warrick. So Representative Katko, there is a lot that 
you have said I would certainly associate myself with. I think 
where we are as a country is that we have built an enormous 
part of our economy around an internet that simply grew up out 
of a series of decisions originally as a defense program that 
turned into something that frankly, you know, from 50 years ago 
we would have thought as science fiction. Now we all carry 
around in our pockets more computing power than what it took to 
get Americans to the moon.
    But there has been no sort-of equivalent security 
architecture----
    Mr. Katko. That is right.
    Mr. Warrick [continuing]. To make that safe. This is going 
to require DHS, and FBI, CYBERCOM, the entire technology-
related security architecture of the United States to figure 
out how better to work with the private sector. We don't want 
the Federal Government dictating standard and reducing 
innovation. That comes from a combination of public and private 
measures that frankly have made our economy vibrant. But 
something more has to be done on security.
    One of the things that concerns me is that at DHS over the 
past decade since the Department was founded, we have added 
missions, and added missions, but we have not had resources 
added to match the missions that have been added. This 
committee, I know Mr. Higgins--I heard him at a hearing 
yesterday--make some important statements about the need for an 
authorization bill and one of the things I'd ask you all to 
look at is, is the Department of Homeland Security adequately 
scoped for the missions that it now has, because they are 
different from what the Department had when it was stood up in 
2003.
    We are, I think, at a fundamental mismatch between the 
security needs and what is funded by the Department and others 
to do right now.
    Mr. Katko. Mr. Chairman, I am out of time, but this is 
something I just think we have to spend a lot more time on it 
going forward.
    Chairman Thompson. Well, and there is no disagreement. I 
think you will see some legislation proposed by Mr. Richmond to 
kind-of close the loop on some of those unmet challenges that 
we face as a country. The Chair recognizes the gentlelady from 
Michigan, Ms. Slotkin, for 5 minutes.
    Ms. Slotkin. Thank you all for being here, for your 
testimony and for the conversation.
    I am concerned, separate from the events that went on in 
the past couple of weeks, I am concerned about looking forward 
and making sure we are doing everything we can to protect 
ourselves and particularly to protect ourselves in our States, 
and back home. I am hosting a big call this Friday, just called 
Enhancing Readiness on Cyber Threats for my State and local 
folks, for everything from election officials to town 
supervisors.
    I wondered if you could, maybe General Stewart, walk us 
through very briefly just to give people back home an 
understanding of how Iran is organized on cyber threats. You 
know, what does it look like? Is it someone in a headquarters? 
Is it a non-associated group under special cover? Just give us 
the literally 30-second version of how they are organized and 
perpetrate attacks.
    General Stewart. By their own words they have somewhere in 
the order of 2,000 or so folks organized from a strategic 
level, through tactical levels, designed to No. 1, defend their 
networks, and No. 2, develop capabilities to go after any 
targets, partnering with nation-states. In their own words, 
again, we are looking for friends and partners friendly to us. 
They cited Russia, China, Pakistan, as friendly partners. So 
they are organized at the strategic level. They are organized 
at the tactical level. They have specialized teams that conduct 
operations, both research and preparation for follow-on ops.
    So they are well-structured throughout. They made a 
commitment to this effort over the last 10 years.
    Ms. Slotkin. We know that in sort-of modern-day cyber 
warfare everybody is on this front lines. It is not traditional 
military or intelligence targets. We have talked about, you 
know, and I think Representative Katko, who has now departed, 
is absolutely right that one day the other shoe is going to 
drop, and we are all going to have this issue right in our face 
in a much more serious way. I know just as being a former CIA 
officer, after 9/11 we made a lot of progress on getting 
different intelligence community agencies to speak to each 
other, and to have better communication.
    Then from the Federal down to the State and local law 
enforcement. But what kind of things should we be doing if we 
are thinking about the future of CISA and DHS, Mr. Warrick? 
What kinds of things should we be looking for and pushing for 
to now take it to the next level, so that we can be helping our 
businesses, small and large, protect themselves, since they are 
on the front lines?
    General Stewart. Let me frame it this way. Sixty percent of 
small and medium-sized business fail within 18 months of a 
breach in cybersecurity. That is the economic underpinning of 
our Nation. Sixty percent will fail within 18 months. Insider 
threats are the greatest threat. So go back to how do we 
educate the population, because insider--all of the companies 
that have reported a breach, generally these are from the 
inside. They all have firewalls. They all have antivirus and it 
is some unknown entity inside that kicks off the attack. So we 
have got to do much better at coordinating at the National 
intelligence level, and I have seen significant coordination 
over the last 18 months.
    The piece that I think is still missing--and I have 
mentioned this before--how do we move that from the National 
intelligence agencies, down to DHS, who are overwhelmed? I got 
to tell you, DHS does not have the number of folks----
    Ms. Slotkin. Right.
    General Stewart [continuing]. In order to carry out all of 
the missions that we have given them.
    Ms. Slotkin. Right. So then let me just push you a little 
bit, because I have only a little bit of time, and maybe Mr. 
Warrick, you can answer this. Give us a vision of what 
``right'' looks like. We have talked about how on a bipartisan 
basis this committee is very supportive of enhancing the 
resources that CISA and DHS has generally. Structurally, if you 
are king for a day, how do we get from where we are to a better 
place?
    Mr. Warrick. Every American citizen needs to realize that 
they are a source of cyber vulnerability or cyber resilience 
and strength. They see the Department of Homeland Security 
providing a coordinating mechanism that shares and assimilates 
the information that we give back so that if an adversary 
starts to attack us we can defend ourselves in microseconds. 
That is what the future needs to look like and boy are we not 
there right now. You are absolutely right.
    Ms. Slotkin. I would just offer in my remaining couple of 
seconds that similar to Representative Katko, I think we have 
an interesting opportunity to speak as a committee about what 
we want to see proactively and I think CISA would welcome this, 
right, the opportunity to tell us how they get to ``right'' 
since they are not resourced the way they need to be now. I 
would welcome the opportunity for the DHS officials to come up 
here and offer those thoughts so that as we go into planning 
for next cycle we can give them the resources they need to 
protect us, or help protect us.
    Chairman Thompson. We will. We have gotten a confirmation. 
The Acting Secretary is scheduled to come on March 3 to defend 
the budget. We will look at that. The problem most often comes 
is when someone will ask the Secretary, do you have all the 
money you need to keep us safe? He will, or she will generally 
say, I am here to defend the numbers. We are here.
    So we get there but just like we put the additional $350 
million in the budget for CISA last time, it was not in the 
budget but we put it there. So--and that was all of us working 
together to make that happen. So what I'm hearing now is that 
in a similar fashion we will have to kind-of take it on 
ourselves to do the right thing. Thank you.
    The Chair now recognizes the gentleman from Mississippi, 
Mr. Guest, for 5 minutes.
    Mr. Guest. Thank you, Mr. Chairman. To our distinguished 
panel, thank you for being here this morning. I thank you for 
what you do each and every day to keep our Nation safe.
    General Tata, you provided to us a written statement that 
lists forth in that statement what you describe as Soleimani's 
legacy of terror. In there you list that Iran has a $26 billion 
military budget and that for 3 years Iran, under Soleimani's 
leadership, has carried out 3 decades of terror against the 
United States. You go on to say that those include resources 
that Hezbollah has been provided to attack our allied nation of 
Israel in the Middle East.
    It talks about him creating money-laundering schemes to 
fund terrorism; that following 9/11 that he was responsible for 
protecting the bin Laden family as well as al-Qaeda leadership. 
More recently we have seen Iran and General Soleimani be 
involved in the shooting down of drones, the seizing of oil 
tankers in the Strait of Hormuz, the attacks on the Saudi oil 
fields, the killing of an American contractor, and the recent 
attacks on the United States Embassy in Baghdad.
    You go on to state that General Soleimani has killed or 
maimed more than 6,500 Americans and that he posed a clear and 
present danger to Americans' interests across this globe. You 
go on to say more so that he was more dangerous that Osama bin 
Laden himself. Then finally you close by saying that 
Soleimani's years of zealously targeting Americans and killing 
them made him more dangerous than any other terrorist in recent 
times. Do you believe that President Trump acted responsibly in 
authorizing the strike that killed General Soleimani?
    General Tata. I do believe he acted responsibly, quickly, 
boldly, and it would have been irresponsible for him not to 
act.
    Mr. Guest. A matter of fact, you go on in your report to 
say not only was--did he act responsibly, but you said he also 
acted decisively and proportionally. Would you expand on that 
very briefly?
    General Tata. Yes, so it was--if you see the pictures, 
obviously there was no collateral damage. The 2 high-value 
targets were killed which, by definition makes the command and 
control of those militias and back to Iran much more 
challenging for that state actor and the non-state actor. So, 
yes, it was under the use of authorization of use of military 
force.
    Soleimani was heavily involved in the transporting bin 
Laden family and Taliban, and other al-Qaeda members 
immediately after 9/11. That's very well-documented and he 
hosted them in Tehran for several years afterward. He also 
moved Zarqawi from Afghanistan to Iran and then moved him into 
Iraq and resourced him. So there is no question that the AUMF 
applied to Soleimani and to Muhandis, quite frankly.
    Mr. Guest. General Tata, finally, as you close out your 
written statement, you say with Soleimani removed from the 
equation we have an opportunity to positively reshape the 
dynamics in the Middle East toward peace and enhanced homeland 
security. Do you believe that our homeland is safer today 
following the death of General Soleimani?
    General Tata. I do believe the homeland is safer today 
because Soleimani and his, you know, morale-building, vast 
reach that he has is no longer. Any time that you take out such 
a leader with flare and elan and networks, and capabilities, 
and resourcing, there is going to be an impact. It may be 
weeks, months, years, but there is an impact.
    It gives us this opportunity to exploit that impact and say 
to Iran we were serious about this. We will deter. We will 
defend and do not do this again. Do not allow for these 
networks to resurge and become the threat that they once were.
    I believe if we do that we may be able to get a discussion 
going. We are going to be able to contain them, I think, and 
deter them. You know, until the theocracy is gone, I don't have 
any illusions that much will change as far as their willingness 
to do us harm.
    Mr. Guest. Finally, General Tata, do you believe and you 
say in your report that with the death of General Soleimani 
that this will help move the peace process forward in the 
Middle East?
    General Tata. No, he was totally counterproductive to the 
peace process. That was part of Iran's two-pronged strategy was 
to pretend like they were deliberating in good faith and then 
to undermine all of our efforts in the Middle East, whether it 
is our interests with Israel, whether it is the interest in the 
Persian Gulf, whether it is our interests throughout southwest 
Asia by using Soleimani to conduct strikes.
    So with him gone, we are safer, Congressman, and to add to 
some of the previous discussion, I would just say that in the 
homeland here I would hope that as we are doing legislation to 
make homeland security more robust, Mr. Chairman, that we would 
take a look at airports, seaports, railroads, energy systems 
and their vulnerabilities with regard to cyber, because now 
with Soleimani and all of them gone, this give us a two-pronged 
opportunity to reshape in the Middle East and also to make more 
robust, as the discussion here has led to, our homeland 
security.
    Mr. Guest. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentlelady from California, Ms. Barragan, for 5 
minutes.
    Ms. Barragan. Thank you. Ambassador Leaf and Mr. Warrick, 
what consequences may result from the suspension of 
counterterrorism operations against ISIS and how should the 
administration be preparing for contingencies at home and 
abroad?
    Ms. Leaf. Well, Congresswoman, it really depends on how 
long this goes and it goes back--endures, and it goes back to 
the issue I mentioned at the outset, which is it is quite 
critical for us to be navigating the turbulent waters in Iraq 
right now and that is quite testing. There is a hard push to 
get our mission out. It is incumbent upon us to signal very 
clearly, very consistently to--both privately and publicly that 
the cost to Iraq of that question, not just to us. But the cost 
will be significant. We will lose intelligence. We will lose 
the ability to have eyes on the problem.
    Mr. Warrick. Representative, every counterterrorism expert 
that you could get to come before this panel in or out of 
Government will tell you ISIS is planning a resurgence. The 
most dangerous thing I would say, speaking for myself, is a 
terrorist safe haven from which they can plan attacks, recruit, 
train, build capacity, and thereby threaten the homeland. So 
the terrorist safe haven is the thing we most need to try to 
prevent.
    ISIS would like to establish one in eastern Syria or 
western Iraq, and that is a mission that I think we would 
neglect at our peril. So I--that would be the most important 
thing I think we need to be focused on, is trying to help the 
Iraqi government build up the capabilities so that it can do 
that mission eventually by itself. But they are certainly not 
there yet.
    Ms. Barragan. Great. One of my concerns has been we have 
seen over the last several years a focus by the administration 
on immigration. It has been such a focus that it feels as 
though they have been taking away focus and efforts in other 
parts of homeland security and other departments. We have also 
seen the President diverting funds from the military to build 
his border wall. He has been diverting billions of dollars.
    In September there was a report that in Virginia the 
State's cyber operations facility at Joint Base Langley will 
lose $10 million, just to give you an example. So here we are 
talking about cyber threats and we are talking about the 
potential increase, and there is money that is being diverted 
away from places like the cyber operations facility.
    Does anybody on this panel want to comment about whether 
the diversion of any funds from places like the cyber 
operations could pose an additional danger, given that they 
have less funding?
    General Stewart. Maybe it is built into my intel DNA that I 
am hesitant to comment on policy decisions, but any time you 
strip away capabilities, personnel, from an area like 
cybersecurity, that increases our risk and our vulnerabilities 
and risk. It is probably not something I would do.
    Ms. Barragan. OK. Anybody else? I mean, I think generally 
speaking if you are investing less money into cyber operations, 
that is going to result in less information and preparation. Is 
that accurate?
    Ms. Leaf. I am not an expert in this, Congresswoman, but 
what I want to go back to is this issue of are we safer today. 
I do not believe we are safer today, because I believe this is 
but a pause in this cycle that we are in that we have been in 
with the Iranians for decades. One of the Members of the 
committee asked words to the effect of why did deterrence fail, 
when did it fail?
    It has failed over a period of time and when you have a 
combination of this long-running cycle between the United 
States and Iran and you have deterrence that shreds over time, 
and specifically, I am looking back at last summer when the 
Persian Gulf provided sort-of a testing theater for Iran.
    So I have no doubt that there is still payback to come from 
Iran notwithstanding that Soleimani is gone. He was the 
national hero. He was ``like this'' with the supreme leader. 
The supreme leader has put himself on the record that that 
missile strike is not enough. So cyber is the logical arena.
    Ms. Barragan. Well, thank you. Thank you for bringing that 
up. That was going to be one of my next questions. Is this the 
end of the revenge phase?
    I happen to represent the port of Los Angeles which is the 
busiest port. It touches every Congressional district and they 
have had their own attacks on cyber operations, and this just 
increases that ability. They can't just fend for themselves. We 
need--the Government is helping create some of these situations 
and making it worse. We need to help them and invest. Thank you 
all for being here and for your testimony. I am out of time. I 
yield back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from Louisiana, Mr. Richmond, for 5 
minutes.
    Mr. Richmond. Thank you, Mr. Chairman. Brigadier General 
Tata, let me just go back, and I am not trying to argue but I 
think there is some inconsistencies. You said that we are safer 
today because Iran was in the position to start selling weapons 
in a couple of years. They would be able to buy and import 
centrifuges and all those things and that they would never live 
up to a deal.
    Then you went on to say now because of the killing and 
sanctions, that you believe that now is the time that they will 
enter into discussions. Well, either they are untruthful and 
they are never going to abide by a deal, or either they will. 
It is not based on who crafts the deal, whether it is President 
Obama or President Trump. Either they are good-faith actors or 
they are not. I have no reason to believe that they are.
    However, I think we had the entire international community 
on our side under the Joint Comprehensive Plan. But let me ask 
another question. This is not a ``got you''.
    I have 20 years in elected office and there is some things 
I hear over and over again that is just plain foolishness that 
makes us less safe. So one of the mantras from the other side 
is we have to do more with less. Can we protect more airports 
with less TSA agents? Anyone think we can? Does anyone think we 
can protect our internet, our local governments and our cyber 
space with less money or less employees?
    General Tata. Well, Congressman, since you----
    Mr. Richmond. Less resources?
    General Tata [continuing]. Address to me I'd like to 
clarify something you said that I said which I said we are more 
safe today because we have killed Iran's chief exporter of 
terror, Soleimani and Muhandis, his chief executor of terror. 
So the--I believe that leadership matters and decisions matter 
with regard to capabilities. They are willing and able. They 
are less able today because the command and control of their 
chief terror network is gone.
    Mr. Richmond. I didn't bring that part up. I just brought 
up the openness, willingness to honor and do a deal, but I want 
to be clear because I want the American people to understand 
that Government has responsibilities. Part of those 
responsibilities, we are not just tax-and-spend Democrats.
    We want to protect the homeland and you can't do it with 
less resources. So what I am asking you all, please, raise your 
hand if you think we can protect this space with less 
resources.
    Mr. Warrick. Representative Richmond, no, quite the 
contrary. Secretary John Kelly, General Kelly, four-star marine 
with whom I had worked when we were both in Iraq and I proudly 
served when he was the Secretary of Homeland Security, famously 
told us in public and in private that the idea of doing less 
with less, or doing more with less, rather, is in almost all 
cases a fantasy. I would agree with Secretary Kelly on that 
view. I think as stewards of the purse of the American public 
it is your duty as Members of Congress to make sure that money 
is spent wisely and well, and that officials are held 
accountable for providing results the way American citizens----
    Mr. Richmond. Reclaiming some of the time, but the point is 
that in this critical space more resources are critical success 
in defending our cyber space. They only have to get lucky once, 
and we have to be successful 100 percent of the time.
    Let me ask you another question. Do you think that the lack 
of stability in terms of leadership at DHS causes some 
potential for concern?
    Mr. Warrick. Yes, absolutely. I am very concerned as all of 
us who have served in the Department know there are enormous 
advantages and especially when you come to the kind of 
strategic rethinking of the Department that can really best be 
done by senior officials and including political appointees who 
are confirmed in their positions by the Senate.
    I would hope that as--actually, I believe it was 
Representative Higgins made this point at a hearing yesterday 
that this is enormously important for the Department to have 
more leadership confirmed by the Senate.
    Mr. Richmond. Very quickly, to the two generals, do you 
think it is important, and do you think it is lawful for there 
to be a clear policy that answering cyber attacks doesn't 
necessarily have to be responded to with a cyber attack? I 
mean, can a cyber attack be so damaging to the United States 
that physical force response becomes appropriate and lawful? 
With that I yield back, Mr. Chairman.
    General Stewart. I do not believe that the signal should be 
a cyber attack will result in a counter cyber attack. That all 
options should be on the table depending on the severity of the 
cyber event. Though kinetic action is certainly appropriate as 
a response to the cyber attack.
    General Tata. I agree with General Stewart.
    Chairman Thompson. Thank you, very much. The Chair 
recognizes the gentleman from Rhode Island, Mr. Langevin, for 5 
minutes.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for your testimony today as well as your service to 
the country. Before I begin my questions, I will say this on 
the issue of Soleimani. I don't regret for a minute that he is 
gone from the face of the planet. He was a murderer, a 
terrorist and a significant danger to the National security of 
the United States. The one problem I do have is with the 
overall lack of strategy, a strategic view of a strategy from 
this administration. That is the problem. They too often 
confuse tactical victories or decisions with somehow achieving 
strategic success and it doesn't always add up that way.
    I hope in the long run that we are safer as a result of 
Soleimani gone. I guess we are going to have to wait to see 
over time. General Stewart, good to see you again. It took me a 
minute to recognize you with the beard, but looking very 
distinguished. I think you for your service to the country and 
the many years that you and I have had interaction together.
    To you and Mr. Warrick, I want to discuss the Iranian cyber 
threat and trying to better coordinate between U.S. Government 
activities and the private-sector owners and operators of our 
critical infrastructure has certainly been a major focus of the 
Cyber Solarium Commission which I am currently serving which is 
charged with creating an overall strategic framework guiding 
policy document to help better protect the country in cyber 
space.
    Do you believe that there are clear lines between what 
companies should be doing to protect themselves? What 
additional steps should they be required to do through 
regulation or incentives and what direct steps should the U.S. 
Government be taking to protect National assets?
    Mr. Warrick. So Representative Langevin, I mean, I am 
certainly familiar with the work of the Cyber Solarium, not as 
much as you are. At this point I don't think that there is 
enough of a clear understanding among the American people as to 
what are the responsibilities of the private sector compared to 
the Federal Government. I think where we need to end up is a 
better understanding upon all citizens as to what their 
responsibilities are, because I think people need to do more.
    I think the Government is going to have to be a shared 
partner in a lot of these activities so that it is not so much 
the Federal Government telling citizens what to do, but 
citizens and the Federal Government, and State and local 
governments all working together toward a shared aim. We did 
that before in the 1950's on civil defense. We need to do it 
now.
    General Stewart. We would not tell any organization in the 
private sector if a missile was in-bound on their target that 
since it doesn't impact that Department of Defense or the 
broader Government, good luck, you are on your own. That is 
basically what we told them in terms of--in cyber space. Good 
luck, you are on your own. Do the best you can. Harden your 
defenses. The cavalry is not coming.
    Mr. Warrick. Oh, but here's a brochure.
    General Stewart. Here is a wonderful brochure. Call the 
following numbers in the event of a crisis. How do we get from 
point defense to what General Alexander calls collective 
defense? That requires a sharing arrangement, where we are 
protecting our Classified but they are also protecting their 
proprietary information.
    In many cases they are unwilling to share because it is 
proprietary that translates to share value. So how do we create 
the environment where we can seamlessly share intelligence at a 
high enough classification level in a timely enough manner, and 
they can share proprietary information and we have an 
environment where we have a good give and take between the 
private sector and public sector.
    There are models, international models that are trying to 
do this including sharing information to the private citizens 
when they are under attack. We need to accelerate how we do 
that and the task forces are not necessarily the answer. They 
are not well-developed enough and I'll stop there.
    Mr. Langevin. Well, on that point, let me ask you this for 
your time at U.S. CYBERCOM and then also work at DHS 
respectively, what is your assessment of the interagency 
coordination when surging proactive cyber defense activities in 
response to either a direct threat or a general time of 
heightened tensions?
    General Stewart. I have actually seen that improve 
significantly, Congressman. Now, I have been away for almost a 
year but in some of these specific targets that we have had an 
interest, I have seen the interagency collaborate. I have seen 
them plan. I have seen the increased authorities that U.S. 
cybercommand receives. So that interagency coordination looked 
like it was on the right path when I left the pattern in April. 
I don't know where it is today, but I saw a significant 
progress over the previous year or so.
    Mr. Warrick. While I certainly won't dispute the General's 
statement that there is progress, I do have a somewhat 
different perspective. It starts out from the idea that when 
offensive cyber operations are planned, the defensive 
specialists are often not in the room, and that kind of thing, 
I think, will have to be changed in the future, but that is a 
long-term problem. It is--we have got to understand, especially 
in the case of Iran that anything we do to them they will do 
back at us in some unusual way.
    What we need to recognize is that they know when they have 
been attacked, and they don't care who attacked them whether it 
is us or somebody that may not be us. They can still take it 
out on us. So we have to have much better coordination between 
our offensive cyber warriors and our defensive cyber 
specialists.
    General Stewart. If I can just build on that and I concur 
about having--it is important as we think the question, are we 
safer, that we listen to what the Iranian leadership says. The 
artillery strikes are not enough. They can't defend everywhere. 
Americans are more vulnerable to cyber threats than any other 
Nation because of their high level of dependency on cyber 
infrastructure. It is important for us to listen to what their 
leaders say.
    General Tata. I would just add that in this continuum of 
Iranian tax since 1979 that are we safer, we have never been 
truly safe and the question is did the Soleimani strike affect 
their ability to carry out certain types of attacks. My 
contention is that it has.
    Mr. Langevin. Thank you all. Thank you, my time has 
expired. I yield back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from Texas for 5 minutes, Mr. Green.
    Mr. Green of Texas. Thank you, Mr. Chairman. I thank the 
Ranking Member as well. I especially thank the witnesses for 
appearing today. Has the extirpation of General Soleimani 
created any unintended consequences that are adverse to our 
best interest, Ambassador Leaf?
    Ms. Leaf. Congressman, I think that will take time to 
assess. With all due respect to my co-panelists, I don't agree 
that the Quds Force has really been dealt a significant blow. 
They are very resilient. I think there is predictability and 
method, and rationality to the way Tehran comports itself. So 
I--but the unexpected, I think you have to look a bit longer 
down the road.
    Mr. Green of Texas. Are the consequences of leaving Iraq on 
our own volition the same as being evicted, Ambassador Leaf?
    Ms. Leaf. Absolutely not. Look, I think it is very 
important to recall that within Iraq itself, there is a wide 
body of support that did not exist in 2011. There is a wide 
body of public support for us to say they well recognize it is 
not just a question of the counter ISIS fight and Iraqis are 
aware that they do not have that capability yet.
    It is also--when we leave, the coalition leaves. There is a 
shrinking of engagement with Iraq. Iraq becomes more isolated, 
more vulnerable to Iran's pressure. Again, going back to the 
issue of what it becomes for the region and I assure you that 
our, that our partners around the region are looking carefully 
at this question, are we going to get pushed out, are we going 
to let ourselves get pushed out?
    Mr. Green of Texas. Mr. Warrick, Nasrallah has command and 
control capabilities. He has probably one of the largest armies 
in the area that is not associated with a State. Is Nasrallah 
one of the rogue actors that you would be concerned with?
    Mr. Warrick. He is one of the most dangerous actors that we 
should concern ourselves with. He is not a rogue, but as both 
General Stewart and Ambassador Leaf said, the mission on which 
Qassem Soleimani was engaged in when he was killed in a strike 
was to build parallel state structures outside of the control 
of any government. That is a hugely dangerous proposition for 
the United States. This is what is creating the conditions that 
create forever wars. It is ironically not the United States. It 
is what Qassem Soleimani and his colleagues in the IRGC have 
been working on, and that is what makes it so dangerous.
    Mr. Green of Texas. The word on the street, to use a 
pedestrian term, is that Iran received US$150 billion; that we 
gave Iran US$150 billion. Is it true that the money Iran 
received was money that we were able to deny Iran for some 
number of years?
    Mr. Warrick. Yes.
    Mr. Green of Texas. It was Iran's money?
    Mr. Warrick. Yes, that is legally what it was.
    Mr. Green of Texas. Is it true that the $150 billion is 
generally perceived by many, including the Treasury of the 
United States of America, as an inflated number?
    Mr. Warrick. So Representative Green, you happen to have 
hit somebody whose wife was in the office of foreign assets 
control at Treasury and has worked on this issue for more than 
20 years. Those were assets frozen by Presidential order and 
were returned after a negotiation. So that is a simple legal 
description of what the money was.
    Mr. Green of Texas. Thank you. I happen to have 
intelligence indicating that $56 billion is the amount the 
Treasury has tagged, but continuing with my very last question. 
Well, my time is up, but if I had the time I'd ask you about 
the safety of American citizens with reference to lone wolves 
who tend to act on their own emotions inspired by things that 
we can rarely understand, but I will not.
    Mr. Warrick. I would say that you would be right in your 
concerns that lone wolves are one of the most difficult things 
for law enforcement and homeland security to try to prevent.
    General Tata. I would just add Congressman, that one thing 
that we should really look at is, why did the Iranian military 
budget grow by over 60 percent between 2015 and 2018 to $26 
billion dollars?
    Mr. Green of Texas. Thank you, Mr. Chairman. You have been 
more than generous. I yield back.
    Chairman Thompson. Thank you very much. Let me thank the 
witnesses for your excellent testimony. I think you have gotten 
the committee in a good position to make some strong arguments 
from a budgetary standpoint that would help shore up some known 
vulnerabilities. We plan to use your testimony wisely in that 
effort. But we absolutely thank you for your forbearance on the 
questions as well as your timely response from them. So thank 
you very much.
    Ranking Member--well, I ask unanimous consent to submit a 
statement for the record from the Jewish Federation of North 
America about homeland security concerns related to Iranian 
proxies.
    [The information follows:]
          Letter From the Jewish Federations of North America
                                  January 15, 2020.
The Honorable Bennie G. Thompson, Chairman,
The Honorable Michael Rogers, Ranking Member,
Committee on Homeland Security, U.S. House of Representatives, 
        Washington, DC 20515.
    Dear Chairman Thompson and Ranking Member Rogers: Thank you for 
holding this morning's timely hearing on U.S.-lran Tensions: 
Implications for Homeland Security. As a major stakeholder for Jewish 
communal security, we wanted to share the following for inclusion in 
the record of today's hearing.
    We understand that the FBI, DHS, and National Counterterrorism 
Center released a joint intelligence bulletin \1\ in response to the 
recent escalation of U.S.-lran tensions that directly pertains to 
Jewish communal security, as summarized below.
---------------------------------------------------------------------------
    \1\ JIB: Escalating Tensions Between the United States and Iran 
Pose Potential Threats to the Homeland, 8 January 2020 (IA-41117-20).
---------------------------------------------------------------------------
    If the government of Iran (GOI) were to perceive actions of the 
U.S. Government (USG) as acts of war or existential threats to the 
Iranian regime, the GOI could act directly or enlist the cooperation of 
proxies and partners, such as Lebanese Hizballah. Based on previously 
observed covert surveillance and possible pre-operational activity, the 
GOI or its violent extremist supporters could commit attacks in 
retribution, with little to no warning, against U.S.-based Jewish 
individuals and interests among likely targets.
    In recent years, the USG has arrested several individuals acting on 
behalf of either the GOI or Lebanese Hizballah who have conducted 
surveillance indicative of contingency planning for lethal attacks in 
the United States against facilities and individuals. In one instance, 
an agent of the GOI arrested in 2018 had conducted surveillance of a 
Hillel Center and the Rohr Chabad Center, Jewish institutions located 
in Chicago, including photographing the security features surrounding 
the Chabad Center.
    Given the tenor of this assessment, we look forward to continuing 
to work with you and the committee to prepare and respond to all manner 
of international and domestic threats to the Jewish community.
            Sincerely,
                                        Robert B. Goldberg,
                              Senior Director, Legislative Affairs.

    Chairman Thompson. I thank the witnesses again for their 
valuable testimony and the Members for all their questions. The 
Members of the committee may have additional questions for the 
witnesses and we ask that you respond expeditiously in writing 
to those questions.
    Without objection the committee record shall be kept open 
for 10 days. Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:26 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
